»> APPENDIXA<<<

v \ mmMOT<

;*}

«/W

Supreme Court
STATE OF ARIZONA
ROBERT BRUTINEL
Chief Justice

ARIZONA STATE COURTS BUILDING
1501 WEST WASHINGTON STREET, SUITE 402
PHOENIX, ARIZONA 85007
TELEPHONE: (602)452-3396

JANET JOHNSON
Clerk of the Court

June 3, 2020
RE:

AREK R FRESSADI v STATE et al
Arizona Supreme Court No. CV-19-0279-PR
Court of Appeals, Division Two No. 2 CA-CV 19-0153
Pima County Superior Court No. CT20190001

GREETINGS:
The following action was taken by the Supreme Court of the State
of Arizona on June 3, 2020, in regard to the above-referenced
cause:
ORDERED: Petition for Statutory Special Action = DENIED.
FURTHER ORDERED: Petition for Review (Oral Argument Requested) =
DENIED.
FURTHER ORDERED: Request for Attorneys’ Fees, Costs, and
Interest (Appellant Fressadi, Pro Se) * DENIED.
Justice Gould did not participate in the determination of this
matter.
Janet Johnson, Clerk
TO:
Arek Fressadi
Mark Brnovich
Amy S Ruskin
James William Rappaport
Jeffrey P Handler
kj

la

»> APPENDIX B «<

FILED BY CLERK

COURT OF APPEALS
STATE OF ARIZONA
DIVISION TWO

OCT 8 2019
COURT OF APPEALS
DIVISION TWO

ORDER

2 CA-CV 2019-0153
Department B
Pima County
Cause No. CT20190001
RE: AREK R. FRESSADI v. STATE OF ARIZONA; TIM LANE, ADOT DIRECTOR...
Pursuant to Motion to Dismiss Appeal, and it appearing this Court does not
have jurisdiction, the case having arisen in Pima County Justice Court and having
been appealed to Pima County Superior Court, A.R.S. Sec. 12-2101 (B),
ORDERED: The above-entitled appeal is DISMISSED.
Judges Espinosa and Eckerstrom concurring.
DATED: October 08, 2019
Karl C. Eppich
Presiding Judge

2a

2 CA-CV 2019-0153
Pima County Superior Court Number CT20190001
Copies to:
Arek R. Fressadi
10780 Fullerton Rd.
Tucson, AZ 85736
ARIZONA ATTORNEY GENERAL
Suite 315 - South Building
400 W. Congress Street
Tucson, AZ 85701
Amy S. Ruskin
DEPUTY PIMA COUNTY ATTORNEY
32 N. Stone, Suite 1400
Tucson, AZ 85701
James Rappaport
DEPUTY PIMA COUNTY ATTORNEY
32 N. Stone Avenue, Ste. 2100
Tucson, AZ 85701
Hon. Brenden J. Griffin
Judge
Pima County Superior Court
110 W. Congress
Tucson, AZ 85701
Gary Harrison
Clerk of the Court
Pima County Superior Court
110 W. Congress
Tucson, AZ 85701

3a

»> APPENDIX C «<

FILED BY CLERK
OCT 22 2019

COURT OF APPEALS
STATE OF ARIZONA
DIVISION TWO

COURT OF APPEALS
DIVISION TWO

ORDER
2 CA-CV 2019-0153
Department B
Pima County
Cause No. CT20190001
RE: AREK R. FRESSADI v. STATE OF ARIZONA; TIM LANE, ADOT DIRECTOR...
Pursuant to MOTION FOR RECONSIDERATION OF DISMISSAL, MOTION FOR
RECONSIDERATION OF DENIAL OF STAY, MOTION FOR JUDGES.RECUSAL IN CONFLICT OF
INTEREST, MOTION FOR SANCTIONS,
ORDERED: Motion for Reconsideration of Dismissal, Motion for
Reconsideration of Denial of Stay, Motion for Judges Recusal in Conflict of
Interest, and Motion for Sanctions are DENIED.
Judges Espinosa and Eckerstrom concurring.
DATED:

1

October 22, 2019

Karl C. Eppich
Presiding Judge
Copies to:
Arek R. Fressadi
10780 Fullerton Rd.
Tucson, AZ 85736
ARIZONA ATTORNEY GENERAL
Suite 315 - South Building
400 W. Congress Street
Tucson, AZ 85701
Amy S. Ruskin
DEPUTY PIMA COUNTY ATTORNEY
32 N. Stone, Suite 1400
Tucson, AZ 85701
James Rappaport
DEPUTY PIMA COUNTY ATTORNEY
32 N. Stone Avenue, Ste. 2100
Tucson, AZ 85701

4a

»> APPENDIX D «<

FILED BY CLERK

COURT OF APPEALS
STATE OF ARIZONA
DIVISION TWO

OCT 3 2019
COURT OF APPEALS
DIVISION TWO

ORDER
2 CA-CV 2019-0153
Department B
Pima County
Cause No. CT20190001
RE: AREK R. FRESSADI v. STATE OF ARIZONA; TIM LANE, ADOT DIRECTOR...
Pursuant to MOTION TO RECONSIDER ORDERS FILED 91319 AND 91619, WAIVE
SUPERSEDEAS BOND AND STAY APPEAL PENDING ARIZONA SUPREME COURT REVIEW Motion for
Procedural Order, and appellant's avowal that this case should be suspended until
the Arizona Supreme Court rules on his petition for review CV-19-0194-PR is not
well taken given that that case in not pending in the Arizona Supreme Court,
ORDERED: MOTION TO RECONSIDER ORDERS FILED 91319 AND 91619, WAIVE
SUPERSEDEAS BOND AND STAY APPEAL PENDING ARIZONA SUPREME COURT REVIEW Motion for
Procedural Order is DENIED.
Pursuant to MOTION TO CORRECT CAPTION,
FURTHER ORDERED:

MOTION TO CORRECT CAPTION is DENIED..

DATED: October 03, 2019
Jeffrey P. Handler
Clerk of the Court
Copies to:
Arek R. Fressadi
10780 Fullerton Rd.
Tucson, AZ 85736
ARIZONA ATTORNEY GENERAL
Suite 315 - South Building
400 W. Congress Street
Tucson, AZ 85701
Amy S. Ruskin
DEPUTY PIMA COUNTY ATTORNEY
32 N. Stone, Suite 1400
Tucson, AZ 85701
James Rappaport
DEPUTY PIMA COUNTY ATTORNEY
32 N. Stone Avenue, Ste. 2100
Tucson, AZ 85701

5a

»> APPENDIX E «<

SUPREME COURT OF ARIZONA
AREK R. FRESSADI,

Arizona Supreme Court
No. CV-19-0194-PR

)
)

Petitioner, )
v.
HON. CHRIS HOLGUIN, HEARING
OFFICER OF THE PIMA COUNTY
CONSOLIDATED JUSTICE COURT OF THE
STATE OF ARIZONA; HON. ADAM
WATTERS, JUDGE OF THE PIMA COUNTY
CONSOLIDATED JUSTICE COURT OF THE
STATE OF ARIZONA; HON. BRENDEN J.
GRIFFIN AND HON. LESLIE MILLER,
JUDGES OF THE SUPERIOR COURT OF
THE STATE OF ARIZONA, in and for
the County of Pima,

Court of Appeals
Division Two
No. 2 CA-SA 19-0031

)'
)
)
)
)

Pima County
Consolidated Court
Nos. CT20190001
C20184203

)
)

)
)
)

FILED 11/19/2019

)
)
)
)
)

Respondent Judges, )
)

ADOT DIRECTOR, TIM LANE; PIMA
)
COUNTY SHERIFF'S DEPARTMENT; PIMA )
COUNTY; THE STATE OF ARIZONA,
)
)

Real Parties in Interest. )
)

ORDER
Presently
Fressadi's
review.

pending

petition

for

before

the

review and

Court

are

supplemental

Petitioner
petition

for

Among other things, the petition for review challenges

the Court of Appeals' June 5, 2019, order granting a deferral of
court fees but not granting Petitioner's request for waiver of
court

fees

and/or

costs

under

considered the petitions,

6a

A.R.S.

§

12-302(D) .

Having

Arizona Supreme Court No. CV-19-0194-PR
Page 2 of 2
IT IS ORDERED granting review of Petitioner's petition for
review

but

only

to

the

extent

it

challenges

the

Court

of

Appeals' June 5, 2019, order.
IT IS FURTHER ORDERED vacating the Court of Appeals' June
5, 2019, order and directing the court to enter an order waiving
court fees and/or costs in connection with Petitioner's special
action.
IT IS FURTHER ORDERED denying review as to all other issues
presented in the petition and supplemental petition.
IT

IS

FURTHER ORDERED

denying

Petitioner's

attorney's fees, costs, and prejudgment interest.
DATED this 19th day of November, 2019.

/s/
ROBERT BRUTINEL
Chief Justice
TO:
Arek Fressadi
Amy S. Ruskin
James William Rappaport
Adam Watters
Hon. Brenden J. Griffin
Hon. Chris Holguin
Hon. Leslie B. Miller
Jeffrey P. Handler

7a

request

for

»> APPENDKF<<<

COURT OF APPEALS
STATE OF ARIZONA
DIVISION TWO

FILED BY CLERK
JUN 10 2019
COURT OF APPEALS
DIVISION TWO

ORDER

2 CA-SA 2019-0031
Department B
Pima County
Cause Nos. CT20190001, C20184203
RE: AREK R. FRESSADI v. STATE OF ARIZONA, PIMA COUNTY SHERIFF; ADOT DIRECTOR
Pursuant to Petition for Special Action,
ORDERED:

The Court declines to accept jurisdiction.

Judges Espinosa and Eckerstrom concurring.
DATED:

June 10, 2019

Karl C. Eppich
Presiding Judge

8a

2 CA-SA 2019-0031
Pima County Superior Court Numbers CT20190001, C20184203
Copies to:
Arek Fressadi
10780 Fullerton Rd.
Tucson, AZ 85736
Amy S. Ruskin
DEPUTY PIMA COUNTY ATTORNEY
32 N. Stone, Suite 1400
Tucson, AZ 85701
James Rappaport
DEPUTY PIMA COUNTY ATTORNEY
32 N. Stone Avenue, Ste. 2100
Tucson, AZ 85701
Hon. Leslie Miller, Judge
Pima County Superior Court
110 West Congress Street
Tucson, AZ 85701
Hon. Brenden J. Griffin, Judge
Pima County Superior Court
110 W. Congress
Tucson, AZ 85701
Gary Harrison
Clerk of the Court
Pima County Superior Court
110 W. Congress
Tucson, AZ 85701

9a

»> APPENDIX G «<

FILED
GARY L. HARRISON
CLERK, SUPERIOR COURT
6/6/2019 8:35:49 AM
By: L. McCormick

ARIZONA SUPERIOR COURT, PIMA COUNTY
HON. BRENDEN J GRIFFIN

CASE NO.

CT20190001

COURT REPORTER:

DATE:

June 05,2019

Anne Bouley Meyer
Courtroom - 680

AREK FRESSADI
Appellant

In Proper Person

VS.
STATE OF ARIZONA
Appellee

Amy S. Ruskin, Esq. counsel for Appellee

MINUTE ENTRY
TRIAL DE NOVO
Appellant is present.
The Court calls the matter to trial.
Mr. Fressadi notes that his witness, Jodi R. Netzer, is also present and seated at the Appellant’s table.
Deputy Smith is seated at the Appellee’s table.
The following exhibits are identified for the Appellee:
A,

copy of Arizona Traffic Ticket and Complaint

B-F,

(each) overhead diagram of scene

The following exhibits are identified for the Appellant:
1,

copy of Affidavit of Jodi R. Netzer

2,

page as to Title 18, U.S.C., Section 242 - Deprivation of Rights Under Color of Law and Title
18, U.S.C., Section 245, Federally Protected Activities

3,

copy of Affidavit of Arek R. Fressadi

4,

copy of Corrective Action Notice dated August 7, 2018

5,

copy of Minute Entry Order and Judgment dated December 20, 2018

6,

copy of Minute Entry Order and Judgment dated January 9, 2019

7,

copy of Minute Entry Order and Judgment dated February 12, 2019
L. McCormick
Deputy Clerk
10a

MINUTE ENTRY
Page 2

Date: June 05, 2019
8,

copy of ADOT Correspondence dated April 25,2019

9,

copy of Supplemental Narrative

10,

color copy of overhead diagram of scene

Case No.: CT20190001

11-12, (each) color copy of 7 x 11” photo
13,

copy of Arizona Crash Report

14,

copy of Vehicle Removal Report

15,

copy of letter dated August 27,2014 from Pima County Sheriffs Department

16-20, (each) color copy of 8 x 11” photo
21,

page depicting Liberty Mutual Insurance 24-hour Roadside Assistance information

22,

copy of owner’s manual for XTR-130 Total Band Protection Laser-Radar Detector

23,

copy of letter dated March 29,1995 from Carl T. C. Gutierrez to Eric R. Freed

24,

color copy of page as to Committee on Rules Resolution No. 513

25,

copy of letter dated July 7,1994, from Joseph F. Ada to Eric R. Freed

26,

copy of Special Power of Attorney

27,

copy of letter dated December 30,1984 re: Loan Authorization and Instructions

On inquiry of the Court as to any preliminary matters, the Appellant states that there are several pending
motions and that he had been requested by the Court for a briefing on due process violations and transfer. As
set forth on the record, he states that he continues to challenge the Court’s jurisdiction to hold this trial as set
forth on the record. He requests to receive full discovery on grounds that there is an incomplete record on this
matter and also requests to depose other witnesses and file cross-claims and for the matter to be conducted
according to a jury trial in lieu of a bench trial.
Ms. Ruskin argues the Appellee’s position, and the Appellant responds.
Referencing the Status Conference on April 22, 2019, the Appellant sets forth his understanding that if
he had other legal obligations attendant prior to June 5th, the Court would make accommodations. He states
that he currently has a petition due at the U. S. Supreme Court in two days and previously moved for a
continuance of today’s trial. He references his involvement in other legal actions in Pima County and states his
desire to consolidate all of those actions into one trial.
IT IS ORDERED that all of Appellant’s pending motions are denied.
The Court provides the basis for its ruling on pending motions in open court as set forth on the record.
For the Appellee:
L. McCormick
Deputy Clerk
11a

MINUTE ENTRY
Page 3

Date: June 05,2019

Case No.: CT20190001

Deputy David Smith is sworn.
The Court makes a record regarding the Appellant’s request for an extension and his position that he is
not prepared.
Deputy David Smith is examined, questioned by the Court and cross-examined.
Appellee rests.
For the Appellant:
Jodi R. Netzer is sworn, examined and cross-examined.
Arek Fressadi is sworn by the Court, testifies and is questioned by the Court and cross-examined.
Appellant rests. Both sides reside.
Appellee’s exhibits A through F and Appellant’s exhibits 1 through 27 are admitted.
The hearing stands at brief recess.
...

Later, same afternoon:

Appellant and same counsel and same court reporter are present.
The Court having found the officer to be more credible for reasons stated on the record,
THE COURT FINDS that Mr. Fressadi responsible.
IT IS ORDERED imposing the same sanction that was imposed at the Pima County Consolidated
Justice Court, which is $250.00 fine that could be mitigated by doing 25 hours of community service with proof
to the Justice Court by September 5,2019.
IT IS ORDERED that the clerk send a copy of this minute entry to this Court for review and sign as a
final order.
IT IS ORDERED that the clerk send a copy of the signed minute entry to Justice Court within 30
calendar days of the Court’s signature.
IT IS ORDERED that the matter is remanded to Pima County Consolidated Justice Court for all further
proceedings.

hon.«rein6enj. griffin
(ID: 454f9a27-92b2-4267-a60f-a878e36f738d)

L. McCormick
Deputy Clerk
12a

;

V

*

’

i

!

i

i
t

i

!

' '}•

;•

*

r

V

MINUTE ENTRY
Page 4
cc:

Date: June 05, 2019

Case No.: CT20190001

Hon. Brenden J Griffin
Amy S. Ruskin, Esq.
Arek Fressadi
Clerk of Court - Exhibits (Remand Desk)
Pima County Consolidated Justice Courts-Appeals (Case/Docket #TR18-014819-CV)

L. McCormick
Deputy Clerk
13a

»> APPENDIXH<<<
FILED
GARY L. HARRISON
CLERK, SUPERIOR COURT
6/24/2019 2:53:53 PM

ARIZONA SUPERIOR COURT, PIMA COUNTY
HON. BRENDEN J GRIFFIN

CASE NO.
DATE:

CT20190001
June 24,2019

AREK FRESSADI
Appellant
VS.
STATE OF ARIZONA
Appellee
RULING
IN CHAMBERS RE APPELLANT'S RECENT FILINGS
Re Motion(s): (1) to Reconsider Trial De Novo Minute Entry Orders; (2) for New Trial; and
(3) for Rehearing (Denied)
The Court has reviewed Appellant’s June 19,2019 combined Motions(s). IT IS ORDERED that
the Motion(s) is/are denied.
Re Motion for the Court to Correct Its Mendacity; To Reconsider “Moot” Order for Waiver of
Transcript and Other Court Fees/Costs (Denied, in Part // Granted, in Part)
The Court has reviewed Appellant’s June 20,2019 combined Motion(s).
IT IS ORDERED denying the Motion(s), to the extent that they request the Court correct any
previous order(s), and granting the Motion(s), to the extent that it requests reconsideration of the
Court’s previous denial of a waiver of costs as to transcript costs and court fees/costs.
As to the latter, NOTICE IS GIVEN that the Court has signed a separate Order Regarding
Deferral or Waiver finding Appellant eligible for a waiver of fees and costs, including court reporter or
transcriber fees. This document has been forwarded to the Clerk’s office for filing into the Court’s file.
cc:

Amy S. Ruskin, Esq.
Arek Fressadi
Court Reporter Manager

A. S.
Judicial Administrative Assistant
14a

»> APPENDIX I «<
FILED
GARY L. HARRISON
CLERK, SUPERIOR COURT
7/8/2019 5:18:34 PM

ARIZONA SUPERIOR COURT, PIMA COUNTY
HON. BRENDEN J GRIFFIN

CASE NO.

CT20190001

DATE:

July 8,2019

AREK FRESSADI
Appellant
VS.
STATE OF ARIZONA
Appellee
RULING
IN CHAMBERS RE APPELLANT S JULY 5,2019 MOTIONS
On July 5,2019, Appellant Arek R. Fressadi filed a five-page document captioned ‘Motion to
Final All Rulings Under ARCP Rule 54(c); Notice of Appeal; Notice of Transcript Ordered; Motion to
Stay or Extend Time to File Opening Brief [per Appellate Rules]; Motion to Stay Proceedings to
Enforce Judgment.” The Court is unclear what, if any relief, Fressadi’s Motion(s) asks from this
Court. However:
1) If he asks this Court to waive his Superior Court/Clerk of Court fees, the Court has already
done so. See the Order Regarding Deferral or Waiver of Court Fees and Costs And Notice
Regarding Consent Judgment and this Court’s In Chambers Ruling dated June 24,2019
regarding the same.
2) If he asks this Court to issue a final ruling in this case, the Court has already done so.
See the Minute Entry dated June 5, 2019 at p. 3, that reads, in part, that the Court has
reviewed and signed the Minute Entry as a “final order.”
3) If he asks for final-ruling language under Rule 54(c), Ariz. R. Civ. P., then, without
commenting on whether such language is a prerequisite for him to seek appellate review, the
Court now gives him that language and appends its June 5,2019 rulings as follows:
No further matters remain pending and the June 5,2019 Minute Entry is entered under
Rule 54(c), Ariz. R. Civ. P.
4) If he is asking for any other relief from this Court, that relief is denied.

HON.<BRENDEN J. GRIFFIN
(ID: 02cb6alb-3363 478b-a60c-12c205999256)

cc:

Amy S. Ruskin, Esq.
Arek Fressadi
A. S.
Judicial Administrative Assistant
15a

»> APPENDIX J «<

FILED
GARY L. HARRISON
CLERK, SUPERIOR COURT
4/23/2019 9:26:54 AM
By: H. Smith

ARIZONA SUPERIOR COURT, PIMA COUNTY
HON. BRENDEN J. GRIFFIN

CASE NO.

CT20190001

COURT REPORTER:

DATE:

April 22, 2019

Digitally Recorded
Courtroom - 680

AREK FRESSADI
Appellant

In Proper Person

VS.
STATE OF ARIZONA
Appellee

Amy S. Ruskin, Esq. counsel for Appellee

MINUTE ENTRY
STATUS CONFERENCE
Plaintiff is present. James W. Rappaport, Esq., from the Pima County Attorney’s Office, is present. Jodi
R. Netzer, assistant to the Appellant, is present.
The Appellant makes a Motion to Strike Pursuant to Rule 7.1 the State’s Status Report filed on
April 9, 2019 and moves that Ms. Ruskin be found in contempt.
Ms. Ruskin apologizes to the Court for not complying with the Court’s Order and filing the
Status Report.
The Court directs Ms. Ruskin to read all Court Orders thoroughly and declines to make any
contempt findings.
The Appellant states a concern regarding jurisdiction.
The Court notes that the Appellant’s objection is more properly considered as a Motion to Transfer to a
Different Judge.
The Court explains to the parties that in the Court’s view this case is limited to the underlying civil
traffic offense and that the Court does not have the authority or jurisdiction to hear any ancillary or related
claims that may arise out of that traffic offense.
The Appellant raises due process issues.
The Court notes that the following are pending:
An objection to Pima County Justice Court’s violating the Appellants’ due process by failing to transfer
the file and Appellant Memorandum, a Notice of the same document to a related case, a Motion for Mandatory
H. Smith
Deputy Clerk
16a

MINUTE ENTRY
Page 2

Date: April 22, 2019

Case No.: CT20190001

Transfer, a Notice of Non-Delivery of Court’s Order filed on March 11,2019, a Motion for Extension to File
Joint Report, a Motion to Remand for New Trial, and a Notice of State and Pima County Non-Compliance with
Court Orders.
Ms. Ruskin argues to the Court and notes that the Appellant did indicate that he was filing a Special
Action, however, he did not file a Petition or record.
The Court informs the parties that it will not be considering the substance of the case that was heard by
the Hon. Leslie Miller in Division 07 as it is not before this court.
Ms. Ruskin requests that the Court rule on the civil traffic case and argues against a mandatory transfer.
IT IS ORDERED briefing on the Appellant’s due process/transfer arguments shall be submitted to the
Court by no later than May 15, 2019. The briefing is limited to ten (10) pages. Any response is due no later than
May 29, 2019. Ms. Ruskin shall email the Plaintiff and the court staff a copy of her response.
The Court, Appellant, and Ms. Ruskin discuss how to proceed in this matter. The Court informs the
Appellant that he is not permitted to file any counter-claims in this case.
The Court notes that it offered to transfer this case to Division 07; however, the Appellant did not
choose to do so.
The Appellant requests a trial de novo on the merits of the appeal.
Ms. Ruskin state no objection to a trial de novo.
IT IS ORDERED setting a Trial de novo on June 5, 2019, at 2:00 PM, in Division 01. Estimated time for
trial is one (1) hour.
IT IS ORDERED that an attorney on behalf of the Pima County Attorney’s office be present at the trial.
The police officer shall be the only person able to testify on behalf of the County.
The Court notes that the Appellant’s position is that none of his potential claims arising out of the
underlying civil traffic event are barred by claim preclusion, issue preclusion, or any other related legal concept.
The Court takes no position.
In the event there are more than fifteen (15) exhibits, counsel/parties shall make arrangements with the
Clerk’s Office to have them pre-marked one (1) week prior to the hearing by calling (520) 724-8279.
cc:

Hon. Brenden J. Griffin
Amy S. Ruskin, Esq.
James W. Rappaport, Esq.
Arek Fressadi
H. Smith
Deputy Clerk
17a

»> APPENDIX K «<
FILED
TONI HELLON
CLE RK, SUPERIOR COURT
.10/12/2018 4:47:16 PM

ARIZONA SUPERIOR COURT, PIMA COUNTY
HON. LESLIE MILLER

CASE NO.

C20184203

DATE:

October 12, 2018

AREK R FRESSADl
Plaintiff
VS.
STATE OF ARIZONA,
PIMA COUNTY,
PIMA COUNTY CONSOLIDATED JUSTICE COURT,
and
PIMA COUNTY SHERIFFS DEPARTMENT
Defendants

ORDER
IN CHAMBERS RE: MOTION FOR CHANGE OF VENUE/APPEAL
Defendant was found Responsible for speeding in the Pima County Consolidated Justice Court.
He has filed a Motion for Change of Venue for his traffic appeal but cites no law or facts that would
support that Motion.
IT IS HEREBY ORDERED that the Motion for Change of Venue is DENIED.
Defendant also filed Motions in Justice Court including a Motion to Set Aside Default which can only
be handled by the trial court. His filing of the Notice of Appeal vested jurisdiction with this Court, mistakenly
depriving him of his opportunity for relief.
Based on the foregoing,
IT IS HEREBY ORDERED that the Appeal is STAYED and the matter is REMANDED to the Pima
County Consolidated Justice Court for resolution of Defendant’s previously filed Motions.

5^ *J&l

HON. LESLIE MILLER

(ID; 381 l6387-04e3-4306-aaaf-44d987c7cfb7)

Distribution on next page
Marizela Espinoza
Judicial Administrative Assistant

18a

ORDER
Page 2

cc:

Date: October 12. 2018

Case No.: C20184203

Amy S. Ruskin, Esq.
Arek R Fressadi
Case Management Services - Civil
Clerk of Court - Appeals Unit
Clerk of Court - Civi l (with file)
Clerk of Court - Exhibits (Remand Desk)
Pima County Consolidated Justice Courts-Appeals (Case/Docket#TR 18-014819-CV)

Marizela Espinoza
Judicial Administrative Assistant

19a

»> APPENDIX L «<
FILED
TONI HELLON
CLERK, SUPERIOR COURT
11/2/2018 3:55:54 PM

ARIZONA SUPERIOR COURT, PIMA COUNTY
HON. LESLIE MILLER

CASE NO.

C20184203

DATE:

November 01, 2018

STATE OF ARIZONA,
Plaintiff
vs.
AREK R FRESSADI,
Defendant

UNDER ADVISEMENT RULING
IN CHAMBERS RE: MOTION FOR RECONSIDERATION
Arek Fressadi (Fressadi) has filed an Appeal from Judgment on a civil traffic violation heard by the
Pima County Consolidated Justice Court (Justice Court). On Appeal, Fressadi filed a Motion for Change of
Venue and Counterclaims against the State. After reviewing Fressadi’s filings, this Court issued a Ruling
denying Fressadi’s Motion for Change of Venue, staying his Appeal, and remanding the matter to the Justice
Court for consideration of his Motion to Set Aside Default. Fressadi has filed a Motion for Reconsideration
On Appeal, Fressadi asserts counterclaims against the State. The Counterclaims are asserted for the first
time on appeal. New issues and arguments may not be raised for the first time on appeal. See Lunney v. State,
244 Ariz. 170, 418 P.3d 943,954 (Ct. App. 2017).
The Justice Court entered a default Judgment against Fressadi. An appeal from a default judgment
cannot be maintained until appellant has sought to set aside the default in the lower court. Soltes v. Jarzynka,
127 Ariz. 427,429,621 P.2d 933, 935 (Ct. App. 1980). Because Fressadi filed his Notice of Appeal before the
Justice Court could consider his request to set aside the default, this Court stayed the Appeal and remanded the
matter to Justice Court for consideration of that Motion.
Additionally, Fressadi has filed a Motion for Change of Venue with his Appeal: In support of his
Motion, Fressadi cites A.R.S. § 12-408 which allows a party to seek a change of venue where the action is
pending in the superior court in a county in which the county is a party. This statute is inapplicable as the
subject of the Appeal is limited to the Justice Court’s Ruling regarding the civil traffic violation and cannot be
expanded to a cause of action against Pima County.

Alexander Kembitzkv
Law Clerk
20a

UNDER ADVISEMENT RULING
Page 2

Date: November 01, 2018

Case No.:

IT IS HEREBY ORDERED that the Motion for Reconsideration is DENIED.
cc:

Arek R Fressadi
Pima County
Pima County Consolidated Justice Court
Pima County Sheriffs Department
State Of Arizona
Case Management Services - Civil
Clerk of Court - Under Advisement Clerk

Alexander Kembitzkv
Law Clerk
21a

C20184203

»> APPENDIX M «<
FILED
GARY L. HARRISON
CLERK, SUPERIOR COURT
5/9/2019 11:56:31 AM

ARIZONA SUPERIOR COURT, PIMA COUNTY
HON. LESLIE MILLER

CASE NO.

C20184203

DATE:

May 09, 2019

AREK R FRESSADI
Plaintiff
VS.
STATE OF ARIZONA, ETAL.
Defendants

ORDER
IN CHAMBERS RE: NOTICE OF TRIAL DE NOVO AND MOTION FOR CORRECTION PER RULE
60(A)
The Court having remanded the matter to the Pima County Justice Court on October 12, 2018, and no
further matters pending in this Court, the Court finds that Plaintiffs Notice/Motion is MOOT.
cc:

Amy S. Ruskin, Esq.
Arek R Fressadi
Case Management Services - Civil

\

Christina Eribez____
Judicial Administrative Assistant
22a

»> APPENDIX N «<
PIMA COUNTY CONSOLIDATED JUSTICE COURT

STATE OF ARIZONA
VS.
FRESSAD1, AREK

PRESENT: □ Defense Attorney
□ interpreter □ Defendant
QWaived

Statute
Number
28-701A.1

Description

240 IN. STONE AVENUE

TUCSON, ARIZONA 85701-1130
CASE NO. TR18-014819-CV

TRAFFIC & CRIMINAL
MINUTE ENTRY
□ JUVENILE
ORDER AND JUDGMENT
vil Traffic Hearing - 7/30/2018 -10:00 A □ ACCOUNT IN COLLECTION
□ SPECIALTY COURT
□ 9.1 Advised
□ Jury Trial Right
□ County Attorney
□ Victim □ Parent S Officer □ Other
Dismiss
Fine/Civil
Amount
Plea / Finding
with/without
Sanction
with proof
prejudice

SPEED NOT REASON & PRUDENT 1- Adjudicated Responsible by I

□

□
□
□
□
□

□
□
□
□
□
□

TOTAL

YOUR NEXT COURT DATE IS TO BE DETERMINED

$160.00

$160.00

$ 160.00

$ 160.00

DIVERSION OPTION:

DEFENDANT IS ORDERED TO:

DEFENDANT IS ORDERED TO SHOW:

DEFENDANT IS ORDERED TO: Pay S 284.75 by Monday, July 30, 2018.
Fines: $ 160.00 JCEF Time Payment Fee: $ 20.00 Civil Traffic Court Operations Fee: S 36.50
Court Automation Fee: $ 18.25 Default Fees: $ 50.00 Total Fines and Fees: $ 284.75
(NOTE: Failure to pay may result in collection costs and suspension ofyour driver's licensej

IT IS FURTHER ORDERED
Defendant FTA at 10:1 lam. enter default judgment. Fine and fees must be paid in full to lift the suspension.

Rdciuc Agreement Statement: I promise to comply with my release conditions, including die standard conditions listed on the back of this form. I understand I have the right to be present at my trial
and other proceedings in iny ease, and that if I fail to appear, the trial or proceedings may be held without me. any bond posted may be forfeited and a warrant may be issued for my arrest. I promise to
notify the court immediately, in writing, of nny change in my current address.
Statement of Understanding: I hereby acknowledge receipt of a copy of the foregoing order I imdersinnd that if I violate any of these orders, the Court may issue a warrant for my arrest anti order me
to jail pending further proceeding* If! h:»ve been placed on probation, the Conn may revoke and tcntiiiuue my ptobumm and impose sentence ill accordance with the law. I promise to notify the
court immediately, in writing, of any change in my current address.

DEFENDANT'S ADDRESS: 10780 S. FULLERTON RD. TUCSON ARIZONA 85736
TELEPHONE: 520-216-4103

DEFF.NDA

DATE: Monday. July 30. 2018

JUDGE:
lon.^Sliolguin

JPI16 (Rev 06-1 M4)bd/mt

Q Copy given to defendant in court

* '\

Original: Court file

□ Pro Tcm

B Hearing Officer

Copy In. Defendant, County Attorney, Defense Attorney, Probation

23a........ ....

»> APPENDIX O «<
PIMA COUNTY CONSOLIDATED V

STATE OF ARIZONA

^ICE COURT

**

t

l.

i

C 9.1 Advised

Statute Number

/0/9

U

Plea

>PFFP NOT

fy/V

7-rfs , //fa
S'

r

Finding

R PF?> IHBrc )

rfZfc///’ AJ /Khf/jf /> "fcfa
,

□ County Attorney
□ Other__________

__________________
D Parent
□ Officer

Description

7*~
/

□ Jury Trial Right

_

“PRESENT: C Defense Attorney______
C Interpreter □ Defendant
C Victim

23-701A 1

TUCSON, ARIZONA 85701-1130

CASE NO. ^Pifumanu-y
□ JUVENILE
□ ACCOUNT IN COLLECTION

TRAFFIC & CRIMINAL
MINUTE ENTRY
ORDER AND JUDGMENT

VS.
^RESSflDI AREF

/

240 N. STONE AVENUE

*

y

-

*

^ in

7

Vt iA f/> r/5'Stf-

*

i L

y/uy /Va

ifin nn

Time

^#3

H /
TOTAL

/

Amount
with proof

/flCK

Ay

YOUR NEXT COURT DATE IS:
Date

Fine/Civil
Sanction

vx

/3r

--

*

Dismiss
with without
Prejudice

.

$

$

AM/PM

□ Case Management Conference
D Bench Trial
□ Status/Review Hearing
□ Sentencing
3 Change of Plea
□ Contempt/Compliance Hearing
3 Evidentiary Hearing/Oral Argument
□ Restitution Hearing
DIVERSION OPTION:
□ Pima County Attorney Diversion Program
Report within 3 days. For dismissal complete and show proof by

□ Telephone Hearing. Call (520) 724-3505
D Affirm Pending Court Dates
D Vacate Pending Court Dates
0 Other

DEFENDANT IS:
months.
Placed on U Unsupervised probation for__
■mmitted to Pima County Jail for____
days.
.j--v.redit
days for time served.
DEFENDANT IS ORDERED TO SHOW:
□ Valid driver’s license by________________ _
□ Current registration by__________________
□ Current insurance due 30 days from today,
hours of Community Restitution by___

L Supervised probation for
months; probation fees of $______ per month.
Suspend
days on completion of conditions of probation. (Serve ___ days).

□ Defensive driving school by___________
□ Alcohol/drug evaluation by___________
□____ hours of Alcohol/drug education by.
_________ D Other________________

DEFENDANT IS ORDERED TO PAY: Total $
□ Pay in full today
Fine
Suspend
Restitution

0 Plea incorporated
$ __________
$ __________
$ __________

per month beginning

.. Pay $.

C Attorney Fees $________
C $20.00 Time Payment Fee
O $18.25 Automation (only Title 28 cases)

□ Warrant fee(s) $__________:________
O $36.50 Court Operations Fee (civil traffic only)

(NOTE: Failure to pay may result in collection costs and suspension ofyour driver’s license)
□ Issue Warrant
□ Bond is hereby;
3 Set Aside Default

C Set Bond $__
C Exonerated S__
C Lift Suspension

C Warrant Remains Active
C Converted $_________
C Vacate Fines/Cost Recovery Fee

O Quash Warrant
□ Assigned to__________
0 Remove from Collections

□ Forfeited $.

IT IS FURTHER ORDERED;

Release Agreement Statement: I promise to comply with my release conditions, including the standard conditions listed on the back of this form. I understand I have the right to be present at my trial
and other proceedings in my ease, and that if I fail to appear, the trial or proceedings may be held without me. any bond posted may be forfeited and a waimnt may be issued for my arrest. I promise to
notify the court immediately, in writing, of any change In my current address.
Statement of Understanding: 1 hereby acknowledge receipt of a copy of the foregoing order. I understand that if 1 violate any of these orders, the Court may issue a warrant for my arrest and order me
to jail pending further proceedings, if I have been placed on probation, the Court may revoke and terminate my probation and impose sentence in accordance with the law. I promise to notify the
' '* immediately, in writing, of any change in my current address.

ENDANT’S ADDRESS:
/
TELEPHONE:
DATE:

c:___Email:

□ cell DEFENDANT’S SIGNAltiRE:<^^•'

/

7/=M^
I

JPl 16 (Rev.I -l6-17)mt

f !

JUDGE:

□ Copy given to defendant in court

^cfProTem
Original: Court file

-24a-

□ Hearing Officer
Copy to: Defendant, County Attorney, Defense Attorney, Probation

»> APPENDIX P «<
PIMA COUNTY CONSOLIDATED ,TT "TICE COURT
STATE OF ARIZONA

□ Jury Trial Right

D9 ! Advised

PRESENT: D Defense Attorney______
□ Interpreter D Defendant
G Victim

23-701A. 1

□ County Attorney.
□ Other___________

__________________
□ Parent
D Officer

Description

Statute Number

CASE NO. TR1&-014319-CV
0 JUVENILE
0 ACCOUNT IN COLLECTION

TRAFFIC & CRIMINAL
MINUTE ENTRY
ORDER AND JUDGMENT

VS.
PRESS ADI, AREK

TUCSON, ARIZONA 85701-1130

240 N. STONE AVENUE

Plea

SPEED NOT REASON & PRUDENj 1

Finding

•

/&7W jin

160.00
/tg&W' - ~

Ay /%

prLU uMz ^- fy&Zsrt’/ t& 4r

A/P'Ab*. pf' dfaf^

/taJeKc/ifif mi

7p

Jk 1i/a/a

YOUR NEXT COURT DATE IS:
Date

mt
TOTAL

/

i

4/jp - i2
$

.$

AM/PM

Time

./.

./.

Amount
with proof

Fine/Civil
Sanction

Dismiss
with without
Prejudice

□ Telephone Hearing. Call (520) 724-3505
□ Affirm Pending Court Dates
□ Vacate Pending Court Dates
□ Other
...........

□
□
□
□

Case Management Conference
D Bench Trial
Status/Review Hearing
□ Sentencing
Change of Plea
D Contempt/Compliance Hearing
□ Restitution Hearing
Evidentiary Hearing/Oral Argument
□ Pima County Attorney Diversion Program
DIVERSION OPTION:
Report within 3 days. For dismissal complete and show proof by

DEFENDANT IS:
D Supervised probation for
months; probation fees of $_____ per month.
days on completion of conditions of probation. (Serve ___ days).
Suspend

Placed on □ Unsupervised probation for__
.months.
_days.
□ Committed to Pinta County Jail for__ _
days for time served.
□ Credit
DEFENDANT IS ORDERED TO SHOW:
□ Valid driver’s license by_________________
0 Current registration by................. ..................
□ Current insurance due 30 days from today.
□____ hours of Community Restitution by___

i

0 Defensive driving school by___________
O Alcohol/drug evaluation by___________
0 ___ _ hours of Alcohol/drug education by.
■

DEFENDANT IS ORDERED TO PAY: Total $
0 Pay in full today
Fine
Suspend
Restitution

C Plea incorporated
S __________
$
__________
S __________

■

O Other _________ __________

• Pay $.

O Attorney Fees $ ______
□ $20.00 Time Payment Fee
C $18.25 Automation (only Title 28 cases)

per month beginning_____________ _
□ Warrant fec(s) $_______J_________ _ -.
□ $36.50 Court Operations Fee (civil traffic only)

(NOTE: Failure to pay may result in collection costs and suspension ofyour driver’s license)
O Issue Warrant
□ Bond is hereby:
□ Set Aside Default

□ Set Bond $__
D Exonerated $__
C Lift Suspension

□ Warrant Remains Active
0 Quash Warrant
C Converted $_________
□ Assigned to_____________ □ Forfeited $.
□ Vacate Fincs/Cost Recovery Fee □ Remove frqn>-£ollections yj

IT IS FURTHER ORDERED:
j-JoL/Pt/e^ Ajfi
AfA^r
f
5.C hAuAL 0
Wi2
CofuftS, A s/j/f

py 4//?-£7)a^>&A

.

i
5a#

Repast’ Agreement Statement: I promise to comply with my release conditions, including the standard conditions listed on the back of this form, \ uffaerstand I have the right lobe present at my trial' /
and other proceedings in my case, and that ift fail to nppcnr.thc trial or proceedings may be held without me. any bond posted maybe forfeited and a warrant may be issued for my arrest. I promise to
notify the court immediately, in writing, of any chnnge in my current address.
Statement of Understanding: I hereby acknowledge receipt of a copy of the foregoing order. 1 understand that if 1 violate any of these orders, the Court may issue a warrant for my arrest and order me
to jail pending further proceedings. Jf I have been placed on probation, tire Court may revoke and terminate my probation and impose sentence in accordance with the law. 1 promise to notify the
court immediately, in writing, of any change in my current address.

DEFENDANT’S ADDRESS:
TELEPHONE:
4----- 4
DATE:
JP116 (RevJ -16-17) mt

.Email:.
.□ cell DEFENDANT’S SIGNATURE: , P „

m

JUDGE:.
O Copy given to defendant in court

0 Pro Tem
Original: Court file

25a

D Hearing Officer
Copy to; Defendant, County Attorney, Defense Attorney. Probation

»> APPENDIX Q «<

CONTITUTIONS AND STATUTES
United States Constitution
U.S. Const., Amend. I:
Congress shall make no law ... abridging the freedom of speech ...; or the right
of the people peaceably to assemble, and to petition the Government for a
redress of grievances.
U.S. Const., Amend. V:
No person shall... be deprived of life, liberty, or property, without due process
of law; nor shall private property he taken for public use, without just
compensation.
U.S. Const., Amend. VII:
In Suits at common law, where the value in controversy shall exceed twenty
dollars, the right of trial by jury shall be preserved, and no fact tried by a jury,
shall be otherwise re-examined in any Court of the United States, than
according to the rules of the common law.
U.S. Const., Amend. VIII:
Excessive bail shall not be required, nor excessive fines imposed, nor cruel and
unusual punishments inflicted.
U.S. Const., Amend. XTV, § 1:
...No State shall make or enforce any law which shall abridge the privileges
or immunities of citizens of the United States; nor shall any State deprive any
person of life, liberty, or property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of the laws.
U.S. Const., Art. VI,

2—“Supremacy Clause”:

This Constitution, and the Laws of the United States which shall be made in
Pursuance thereof; and all Treaties made, or which shall be made, under the
Authority of the United States, shall be the supreme Law of the Land; and the
Judges in every State shall be bound thereby, any Thing in the Constitution or
Laws of any state to the Contrary notwithstanding.

26a

Arizona Constitution
Ariz. Const., Art. 2, § 3(A)—“Supreme law of the land...”:
The Constitution of the United States is the supreme law of the land to which
all government, state and federal, is subject.
Ariz. Const., Art. 2, § 4—“Due process of law”:
No person shall be deprived of life, liberty, or property without due process of
law.
Ariz. Const., Art. 2, § 15—“Excessive bail; cruel and unusual punishment”:
Excessive bail shall not be required, nor excessive fines imposed, nor cruel and
unusual punishment inflicted.
Ariz. Const., Art. 2, § 23—“Trial by jury; number of jurors specified by law”:
The right of trial by jury shall remain inviolate. ... In all other cases [i.e. non­
criminal], the number of jurors, not less than six, and the number required to
render a verdict, shall be specified by law.
Ariz. Const., Art. 6, § 17—“Superior court; conduct of business; trial juries; jury
trial...”:
... For the determination of civil causes and matters in which a jury demand
has been entered ... a trial jury shall be drawn and summoned from the body
of the county, as provided by law. The right of jury trial as provided by this
constitution shall remain inviolate...
Arizona Revised Statutes (“A.R.S.”)
A.R.S. § 12-349—“Unjustified actions; attorney fees, expenses and double damages;
exceptions; definition”:
A. Except as otherwise provided by and not inconsistent with another statute,
in any civil action commenced or appealed in a court of record in this state, the
court shall assess reasonable attorney fees, expenses and, at the court’s
discretion, double damages of not to exceed five thousand dollars against an
attorney or party, including this state and political subdivisions of this state,
if the attorney or party does any of the following:

27a

1. Brings or defends a claim without substantial justification.
2. Brings or defends a claim solely or primarily for delay or harassment.
3. Unreasonably expands or delays the proceeding.
4. Engages in abuse of discovery.
B. The court may allocate the payment of attorney fees among the offending
attorneys and parties, jointly or severally, and may assess separate amounts
against an offending attorney or party.
C. Attorney fees shall not be assessed if after filing an action a voluntary
dismissal is filed for any claim or defense within a reasonable time after the
attorney or party filing the dismissal knew or reasonably should have known
that the claim or defense was without substantial justification.
D. This section does not apply to the adjudication of civil traffic violations or to
any proceedings brought by this state pursuant to title 13.

F. For the purposes of this section, "without substantial justification" means
that the claim or defense is groundless and is not made in good faith.
A.R.S. § 12-408—“Procedure for change of venue when county is a party”:
A. In a civil action pending in the superior court in a county where the county
is a party, the opposite party is entitled to a change of venue to some other
county without making an affidavit therefor.
A.R.S. § 12-821.01—“Authorization of claim against public entity... or public employee”:
A. Persons who have claims against a public entity ... or a public employee
shall file claims with the person or persons authorized to accept service for the
public entity ... or public employee as set forth in the Arizona rules of civil
procedure within one hundred eighty days after the cause of action accrues.
The claim shall contain facts sufficient to permit the public entity ... or public
employee to understand the basis on which liability is claimed. The claim shall
also contain a specific amount for which the claim can be settled and the facts
supporting that amount. Any claim that is not filed within one hundred eighty
days after the cause of action accrues is barred and no action maybe maintained
thereon.

28a

B. For the purposes of this section, a cause of action accrues when the damaged
party realizes he or she has been damaged and knows or reasonably should
know the cause, source, act, event, instrumentality or condition that caused or
contributed to the damage.
C. Notwithstanding subsection A, any claim that must be submitted to a
binding or nonbinding dispute resolution process or an administrative claims
process or review process pursuant to a statute, ordinance, resolution,
administrative or governmental rule or regulation, or contractual term shall
not accrue for the purposes of this section until all such procedures, processes
or remedies have been exhausted. The time in which to give notice of a
potential claim and to sue on the claim shall run from the date on which a final
decision or notice of disposition is issued in an alternative dispute resolution
procedure, administrative claim process or review process. This subsection
does not prevent the parties to any contract from agreeing to extend the time
for filing such notice of claim.
D. Notwithstanding subsection A, a minor or an insane or incompetent person
may file a claim within one hundred eighty days after the disability ceases.
E. A claim against a public entity or public employee filed pursuant to this
section is deemed denied sixty days after the filing of the claim unless the
claimant is advised of the denial in writing before the expiration of sixty days.
F. This section applies to all causes of action that accrue on or after July 17,
1994.
G. If a genuine issue of material fact exists as to whether the requirements of
this section have been complied with, the issue shall be resolved before a trial
on the merits and at the earliest possible time.
H. This section does not apply to any claim for just compensation pursuant to
chapter 8, article 2.1 of this title.
A.R.S. § 12-2101—“Judgments and orders that may be appealed”:
A. An appeal may be taken to the court of appeals from the superior court in
the following instances:
1. From a final judgment entered in an action or special proceeding
commenced in a superior court, or brought into a superior court from
any other court, except in actions of forcible entry and detainer when
the annual rental value of the property is less than three hundred
dollars.

29a

2. From any special order made after final judgment.
3. From any order affecting a substantial right made in any action when
the order in effect determines the action and prevents judgment from
which an appeal might be taken.
4. From a final order affecting a substantial right made in a special
proceeding or on a summary application in an action after judgment.
5. From an order:
(a) Granting or refusing a new trial, or granting a motion in arrest
of judgment.
(b) Granting or dissolving an injunction, or refusing to grant or
dissolve an injunction or appointing a receiver.
6. From an interlocutory judgment that determines the rights of the
parties and directs an accounting or other proceeding to determine the
amount of the recovery.
B. If any order or judgment referred to in this section is made or rendered by
a judge it is appealable as if made by the court.
A.R.S. § 13-707—“Misdemeanors; sentencing”:
A. A sentence of imprisonment for a misdemeanor shall be for a definite term
to be served other than a place within custody of the state department of
corrections. The court shall fix the term of imprisonment within the following
maximum limitations:
1. For a class 1 misdemeanor, six months.
2. For a class 2 misdemeanor, four months.
3. For a class 3 misdemeanor, thirty days.
B. A person who is at least eighteen years of age or who has been tried as an
adult and who stands convicted of any misdemeanor or petty offense, other
than a traffic offense, and who has been convicted of one or more of the same
misdemeanors or petty offenses within two years next preceding the date of
the present offense shall be sentenced for the next higher class of offense than

30a

that for which the person currently is convicted. Time spent incarcerated
within the two years next preceding the date of the offense for which a person
is currently being sentenced shall not he included in the two years required to
be free of convictions.
C. If a person is convicted of a misdemeanor offense and the offense requires
enhanced punishment because it is a second or subsequent offense, the court
shall determine the existence of the previous conviction. The court shall allow
the allegation of a prior conviction to be made in the same manner as the
allegation prescribed by section 28-1387, subsection A.
D. A person who has been convicted in any court outside the jurisdiction of this
state of an offense that if committed in this state would be punishable as a
misdemeanor or petty offense is subject to this section. A person who has been
convicted as an adult of an offense punishable as a misdemeanor or petty
offense under the provisions of any prior code in this state is subject to this
section.
E. The court may direct that a person who is sentenced pursuant to subsection
A of this section shall not be released on any basis until the sentence imposed
by the court has been served.
A.R.S. § 13-2301—“Definitions”:

D. For the purposes of sections 13-2312, 13-2313, 13-2314 and 13-2315, unless
the context otherwise requires:
4. "Racketeering" means any act, including any preparatory or
completed offense, that is chargeable or indictable under the laws of the
state or country in which the act occurred and, if the act occurred in a
state or country other than this state, that would be chargeable or
indictable under the laws of this state if the act had occurred in this
state, and that would be punishable by imprisonment for more than one
year under the laws of this state and, if the act occurred in a state or
country other than this state, under the laws of the state or country in
which the act occurred, regardless of whether the act is charged or
indicted, and the act involves either:
(b) Any of the following acts if committed for financial gain:
(ix) Extortion.

31a

V
A.R.S. § 22-202—“Venue of civil actions”:
A. A person shall not be sued outside of the justice precinct where the person
resides, except:
1. If a defendant or all of several defendants reside outside the state or
when their residence is unknown, the action may be brought in the
justice precinct where the plaintiff resides.
2. A married person may be sued in the justice precinct where the
person’s spouse resides unless the spouse is living separate and apart
from the defendant.
3. Transient persons may be sued in any justice precinct in which found.
4. Persons who have contracted a debt or obligation in one justice
precinct and thereafter move to another precinct may be sued in either
precinct.
5. Persons who have contracted in writing to perform an obligation in
one justice precinct may be sued in that precinct or where the persons
reside.
6. If there are several defendants residing in different justice precincts,
an action may be brought in the justice precinct where any of the
defendants reside.
B. Actions filed in justice court against a person who is alleged to have
committed a civil traffic violation shall be brought in any precinct in which the
violation is alleged to have occurred.
A.R.S. § 22-204—“Change of venue; grounds”:
A. If either party in an action pending in a justice court, after the answer has
been filed, files an affidavit in the action alleging any of the grounds specified
in subsection B of this section and gives five days’ notice to the opposite party,
the venue may be changed as provided by law.
B. Grounds that may be alleged for change of venue are:
1. There exists in the precinct where the action is pending so great a
prejudice against the party requesting a change of venue that the party
cannot obtain a fair and impartial trial.

32a

2. The convenience of witnesses and the ends of justice would be
promoted by the change.
3. The court determines that there is other good and sufficient cause.
C. The court shall determine the truth and sufficiency of the grounds, but a
decision refusing the change of venue is appealable as part of an appeal from
a final judgment.

is
id
le
er
al
le

D. A justice of the peace may transfer the action for trial to another justice
court precinct on written consent of the parties and the justice of the peace
receiving the action.
A.R.S. § 22-220—“Appearance of defendant; demand or waiver of jury; time of trial;
charging the jury”:

ig
a
le

A. When a defendant appears the defendant’s appearance shall be noted in the
court record.
B. Either party may demand a jury before trial, and if not then demanded, trial
by jury shall be deemed waived. This subsection does not apply to civil traffic
violations for which citations are issued under title 28.

he
be

C. When a jury is demanded, the trial may be postponed until a jury is
assembled.
D. Except as otherwise provided by law, the justice of the peace shall charge
the jury in all civil actions.
A.R.S. § 22-375—“Limitation of appeal from superior court in action appealed from
inferior court”:
A. An appeal may be taken by the defendant, this state or any of its political
subdivisions from a final judgment of the superior court in an action appealed
from a justice of the peace or municipal court, if the action involves the validity
of a tax, impost, assessment, toll, municipal fine or statute.
B. Except as provided in this section, there shall be no appeal from the
judgment of the superior court given in an action appealed from a justice of the
peace or a municipal court.

33a

ag
of
ue
or
an
re
tid
to
in
mt

ll .Q

Judge

»> APPENDIX S «<

PIMA COUNTY CONSOLIDATED JUSTICE COURT
240 NORTH STONE AVENUE, TUCSON. AZ 85701-1130 (520)724-3171
STATE OF ARIZONA
Estado de Arizona
Plaintiff / Demandante

CIVIL TRAFFIC
MOTION

Defendant Name / Nombre det Acusado

Pedimenlo De Trafico Civil

I C'A

-rr.iR.pym
Case Number

f-OU

r-QA

9 •

Address / Direccion

-TUC'Se-A

Numero de Caso
OR 10

/vz

City
Ciudad

State
Estado

Zip Code
Codigo Postal

•
\ c, - -4i OB
Phone Number / Numero de telefono
►—<Ac_ C*
-p s X B •
Email Address / Correo electrdnico

Citation Number
Numero de infraaccion

Continue/Extension o Other
Postergar / Prorroga
Otro
/ /-'t XU'"'* T-rCS'-*A
For the following reason(s) / E///os siguientes(s) motive(s):
* /?V-t
ro
5“a--7
j t/ < c. c £
t
\//< -b

rovv-\

MOTION TO /peticion para: q Lift Suspension
Leventar Suspension

pi i/'
C O

dc -A" A_1 v

/N/--1

•jo

f'OUA T

< O/t
/--P-

"pY /v'i />-

■4-

d

u

C!

a-

pdX

7\ A* A

C"*~A 7- f

'<—'7

jdS B-A-r. ?'M$-

/■•Vf'Vs, (-f'i
TTf/s'i

/'i7'4 C>U'X"

"Ttcs

Cl.

Requests for reasonable accommodations for persons with disabilities must be made at least 3 working days in advance ofscheduled court proceedings.
Aquellos con discapacidades que requieran modificaciones razonables deberian solicitarlas al tribunalpor lo menos 3 dias habiles antes de su audiencia
programada
VERIFICATION / Conftrmacidn

□ Interpreter Needed__________________

I swear that I am the defendant in this action, that I have read this motion, and that the statements are true to the best of my knowledge.
Juro que soy el acusado en esta accion, que he leido esta peticion, y que las deelaraciones sonfieles a lo mi mejor de mi conocimiento.
Date / Fecha.

l\

/ 'VWc

r2_5A'iX_

Clerk Initials / Iniciales del acmario:

/?}

Signature /firma
| 1 Check to verity submitting with electronic signature

iM-

H-

CLERK USE ONLY

i'l'j

Charge 1. '?'f\ -~"7c > \ Ct ) Adjudicated on:
Charge 2.
Adjudicated on:
Adjudicated on:
Charge 3.
Adjudicated on:
Charge 4.
Adjudicated on:
Charge 5.
□ Account in FARE Collections

"7 / fjr >/
/
/
/

/
/
/

/

/

1 % oDefault ^Suspension
□Default ^Suspension
□Default aSuspension
□Default □Suspension
□Default aSuspension
W TOTAL DUE: $

TTEAP Hold

O

co
$
[. ,^v
«•
to
••A

Defendant has failed to complete the following:
□ Appear at Arraignment/Extension □Provide proof of Ins/Reg/MYR □ Provide Proof of Equip/Child Restraint
□Complete DDS

□Provide Proof of Repair

□Provide Payment Timely

□Appear at Traffic Trial/Hearing

□Community Service

□Complete Conditions set by Judge/Hrg Offer

JP1S1A (Rev 10-31-17) an/jb

www.jp.pima.gov

40a

Original-Court Ciumry-DcfciUlnul

»> APPENDIX T «<

»LAi!

MYiM BY O

A State-By-State Analysis of Driver's License
Suspension Laws for Failure to Pay Court Debt
Authored by Mario Salas and Angela Ciolfi

r

r"

i

j ■

N

i

\

ii

/

J
i
i

/

X

i

w

t

r

It

, »

■;

■%

%

s LEGAL AID
JUSTICE CENTER
41a

ACKNOWLEDGEMENTS
Work on this project was made possible by a grant from the Laura and John Arnold Foundation. Points of view or
opinions in this document are those of the authors and do not necessarily represent those of the Laura and John
Arnold Foundation.
We are grateful to University of Virginia School of Law student volunteers Clayton Pasley, Katherine Mann, Shivani
Patel, and Steven Weiser, who researched and compiled state laws, and to LAJC attorneys Pat Levy-Lavelle and Amy
Woolard, who reviewed multiple drafts.
We are also thankful for the contributions of a national community of advocates, especially those who consulted
with us and verified our research: Caren Short, Southern Poverty Law Center (Alabama, Georgia, Louisiana,
Mississippi, South Carolina); Nikole Nelson, Alaska Legal Services Corporation (Alaska); Catherine Sevcenko,
Equal Justice Under Law (Arkansas, Michigan, Montana, Pennsylvania, Washington); Rebekah Evenson, Bay Area
Legal Aid (California); Becca Curry and Denise Maes, American Civil Liberties Union of Colorado (Colorado);
Anne Louise Blanchard, Connecticut Legal Services, Inc. (Connecticut); Sarah Hollender, Tzedek DC (Washington,
D.C.); Benjamin Stevenson, American Civil Liberties Union of Florida (Florida); Howard Beloduff, Idaho Legal Aid
Services (Idaho); Jody Blaylock, Heartland Alliance (Illinois); Adam Mueller, Indiana Legal Services, Inc. (Indiana);
Alex Kornya, Iowa Legal Aid (Iowa); Jack Comart, Maine Equal Justice Partners, and Meagan Sway, American Civil
Liberties Union of Maine (Maine); Amy Hennen, Maryland Volunteer Lawyer Service (Maryland); Anna Odegaard,
Minnesota Asset Building Coalition (Minnesota); Ken Smith, Nebraska Appleseed Center for Law in the Public
Interest (Nebraska); Jon Sasser, Washoe Legal Services (Nevada); Lynne Parker, New Hampshire Legal Assistance
(New Hampshire); Demelza Baer, New Jersey Institute for Social Justice (New Jersey); Juan Martinez, New Mexico
Center on Law and Policy (New Mexico); Helen Syme, Monroe County Public Defender’s Office (New York); Daniel
Bowes, North Carolina Justice Center (North Carolina); Mike Brickner and Elizabeth Bonham, American Civil
Liberties Union of Ohio, and R. Orion Danjuma, American Civil Liberties Union (Ohio); Ed Wunch, Legal Services
of Oklahoma (Oklahoma); Andrew Christy, American Civil Liberties Union of Pennsylvania (Pennsylvania); John
Willumsen-Friedman, Rhode Island Center for Justice (Rhode Island); Claudia Wilner, National Center for Law
and Economic Justice (Tennessee); Mary Schmid Megler, Texas Appleseed Criminal Justice Project (Texas); Kate
White, Legal Aid of West Virginia (West Virginia); and Vicky Selkowe and Molly Gena, Legal Action of Wisconsin
(Wisconsin). Thanks also to Gavin Kearney, Ambar Roberts, and Kevin Herrera with the Sargent Shriver National
Center on Poverty Law and Alex Gulotta of Bay Area Legal Aid for helping to connect us with local practitioners.
Although we made every attempt to verify the results of our research with local practitioners, any remaining errors
are ours, and ours alone.

Disclaimer
This report is not legal advice. Because of the rapidly changing nature of the law, information contained in this report may become outdated, and anyone using this
material in a legal matter must always research original sources.

Driven by Dollars: A State-By-State Analysis of Driver's License Suspension Laws for Failure to Pay Court Debt

42a

TABLE OF CONTENTS

Executive Summary.............................

1

The Problem with License-for-Payment

3
... 3

Unfair and Harmful..........
The Vicious Court Debt Cycle

5

Prolonged Court Involvement.

6

Costly to Communities.... .....

....6

Unconstitutional....................

.....7

Findings................................................

8

Conclusion and Recommendations.......

........ 10

Endnotes.....

........12

Appendix A: Detailed State-by-State Table.

♦ ♦♦

.14

Legal Aid Justice Center I Fall 2017

43a

EXECUTIVE SUMMARY
Across the country, millions of people have lost their licenses simply because they are too poor to pay,
effectively depriving them of reliable, lawful transportation necessary to get to and from work, take children
to school, keep medical appointments, care for ill or disabled family members, or, paradoxically, to meet
their financial obligations to the courts.
State laws suspending or revoking driver’s licenses to punish failure to pay court costs and fines are
ubiquitous, despite the growing consensus that this kind of policy is unfair and counterproductive. Fortythree states and the District of Columbia use driver’s license suspension to coerce payment of government
debts arising out of traffic or criminal convictions. Most state statutes contain no safeguards to distinguish
between people who intentionally refuse to pay and those who default due to poverty, punishing both
groups equally harshly as if they were equally blameworthy.
License-for-payment systems punish people—not for any crime or traffic violation, but for unpaid debts.
Typically, when a state court finds a person guilty of a crime or traffic violation, it orders the person to
pay a fine or other penalty along with other administrative court costs and fees. If the person does not
pay on time, the court or motor vehicle agency can—and in some states, must—punish the person by
suspending his or her driver’s license until the person pays in full or makes other payment arrangements
with the court.
By cutting people off from jobs, license-for-payment systems create a self-defeating vicious cycle. A state
suspends the license even though a person cannot afford to pay, which then makes the person less likely
to pay once he or she cannot drive legally to work. The person now faces an unenviable choice: drive
illegally and risk further punishment (including incarceration in some states), or stay home and forgo the
needs of his or her family. In this way, license-for-payment systems create conditions akin to modern-day
debtor’s prisons.
Despite their widespread use, license-for-payment systems are increasingly drawing critical scrutiny from
motor vehicle safety professionals, anti-poverty and civil rights advocates, and policymakers. New state-

MILLIONS OF DRIVERS ACROSS THE COUNTRY HAVE LOST THEIR
DRIVER'S LICENSES BECAUSE OF COURT DEBT.
Although we do not have nationwide data, we know that the individuals whose licenses are currently
suspended or revoked for failure to pay court debt number in the millions. Indeed, just five states account
for over 4-2 million people:
»
»
»
»
»

1.8 million Texans1
Almost 1.2 million North Carolineans;2*
977,000 Virginians;3
146,000 Tennesseans;'1
100,000 Michiganders;5

♦Data from North Carolina include drivers suspended for failure to appear as well as failure to pay.

Legal Aid Justice Center I Fall 2017

44a

Lii

based advocacy campaigns across the country have produced reforms by way of the courts, legislatures,
and executive agencies.
To provide national context for these efforts, we analyzed license-for-payment systems in all 50 states and
the District of Columbia to generate conclusions about the prevalence and uses of license-for-payment.
Our key findings include:
» 43 states (and D.C.) suspend driver’s licenses because of unpaid court debt;6
» Only four states require an ability-to-pay or “willfulness” determination before a license can be
suspended for nonpayment;
» 19 states—almost 40% of the nation—have laws imposing mandatory suspension upon nonpayment
of court debt; and,
» Virtually all states that suspend for unpaid court debt do so indefinitely, with rules that prevent
reinstatement until payment is satisfied.
All over the country, people are struggling to earn a livelihood and meet the needs of their families while
their licenses remain indefinitely suspended because of court debt they cannot pay. At a time of historic
income and wealth inequality, states should urgently reexamine whether the policy’s immense costs to
individuals, communities, and states overwhelm its benefits. At a minimum, license-for-payment states
should review their policies to ensure their systems provide due process, with adequate safeguards in place
to make certain no person is punished because of poverty.

|V]

Driven by Dollars: A State-By-State Analysis of Driver's License Suspension Laws for Failure to Pay Court Debt

45a

THE PROBLEM WITH LICENSE-FOR-PAYMENT
It is often said that driving is a privilege. But for most people, the ability to drive legally to jobs, medical
appointments, places of worship, and the grocery store is no more a privilege than it is to work, eat, pray,
and care for their families. Indeed, as the U.S. Supreme Court wrote nearly 50 years ago in Bell v. Burson, a
driver’s license “may become essential in the pursuit of a livelihood.’’7
Across the country, however, most states see the need to drive as a court debt collection opportunity: Pay
what you owe, or else lose your license.
These license-for-payment systems are unfair and harmful to individuals, needlessly perpetuate involvement
with the criminal justice system, and are costly and counterproductive for states and communities.
Without adequate safeguards to prevent people from being punished for their poverty, they may also
be unconstitutional.

UNFAIR AND HARMFUL
License-for-payment systems have a disproportionate impact on low-income people. People in this group
have fewer available resources to divert to paying court debt, and are therefore at greater risk of losing their
licenses for nonpayment. While wealthier drivers have little difficulty covering court debt, people living
paycheck-to-paycheck with little or no savings and families to support may not be able to pay in a lump sum
or consistently make payments on installment plans.
People already on shaky financial grounds and saddled with court debt are likely to suffer a wide range of
harms after losing the ability to drive legally.8 Unsurprisingly, driver’s license suspension is correlated with
job loss9 and missed job opportunities.10 Without the ability to drive, most jobs are virtually inaccessible to
people living in many of the country’s largest urban areas.11 Inaccessibility is likely to be an even larger issue
in rural areas lacking public and other alternative transportation. Even if a workplace is just a short drive or

A REAL EXAMPLE OF THE COURT DEBT CYCLE
Demetrice Moore is a certified nursing assistant (CNA) and mother of two children. In 2002, she was
convicted of grand larceny, and sentenced to jail and to pay court costs, including the cost of the lawyer
appointed to represent her because she was indigent. She served her jail time, but was unable to pay the
court costs she owed, which resulted in the automatic suspension of her Virginia driver’s license.
As a CNA, she had to drive extensively to care for elderly and disabled patients in their homes.
Consequently, she was convicted several times for driving on a suspended license, and was jailed for that
offense for 23 days in 2016. She stopped working as a CNA because of the required driving. Her court
debt from the multiple convictions and accumulated interest ballooned to almost $4,500, and she could
not afford the $100 per month payment plan offered by one of the courts. Having been stripped of her
license for over a decade, Ms. Moore and the family she supports have been punished, far beyond the
terms of her sentencing 15 years ago, because she is poor.

rLegal Aid Justice Center I Fall 2017

46a

.. j

bus ride away from the worker’s home, lacking a valid driver’s license can make getting to and from work or
carrying out a job search far more time-consuming and unreliable. On average, commutes for people who
use public transportation are about twice as long as commutes for people who drive.12 Jobs that cannot be
accessed by public transportation at all may become entirely unreachable without unfailing support from
friends or family.
Transportation limitations aside, many jobs require a valid license, such as delivery services, commercial
trucking, and operating forklifts and other construction equipment. Moreover, even when driving is not
part of the job duties, many employers often ask whether job applicants have a valid driver’s license, viewing
licensure as an indicator of stability and reliability.13
In these ways, license-for-payment systems irrationally tend to deprive vulnerable people of the means by
which they can pay their debts and take care of themselves and their families, and create a vicious cycle.
People cannot afford to pay, so they lose their licenses. When they lose their licenses, they cannot legally
drive to work, so they lose their jobs or cannot find jobs. Even those who find another job may experience
a decrease in pay.14 All of these forces result in people being less likely to pay court debts, which can lead to
additional court involvement.
License-for-payment systems are also problematic because they result in enforcement disparities to the
detriment of historically vulnerable groups. For example, recent data from California show a strong positive
correlation by zip code between black populations and driver’s license suspension for nonpayment or
nonappearance at related court hearings.15 In Virginia, too, data suggest black people disproportionately
suffer driver’s license suspension for nonpayment.16 This group also appears to suffer a disproportionate rate
of convictions for driving with a suspended license when the underlying suspension is due to nonpayment.17
Similar disparities have been documented in Wisconsin.18

mI
l

1
S

i.

I

Driven by Dollars: A State-By-State Analysis of Driver's License Suspension Laws for Failure to Pay Court Debt

47a

THE VICIOUS COURT DEBT CYCLE

/

She is released from jail with
several convictions, more
fines, no license, and no job.
But she continues to drive
and look for work to support
her family.

Jane gets a ticket for
speeding to pick up her
son from school. Jane is
convicted and assessed
court costs and fines.

-AThe third time that
Jane is convicted of
^driving with a
4
suspended license, she
is sentenced to 10 days
in jail. She is assessed
additional fines and
costs, including the
cost of her courtappointed lawyer.

^POLICE
Jane earns $7.25/hour
and has no savings.
After paying for rent,
food, and utilities,
she lacks the $50
down payment
required to establish
a payment plan.

Jane does not have
access to public
transportation, but
needs to pay the rent
for herself and her son.
She continues to drive
to work and is caught
i two more times.

Jane does not pay in
30 days, and her
license is suspended.

:

Legal Aid Justice Center I Fall 2017

48a

[ ■’> j

j
]
j

j
I

PROLONGED COURT INVOLVEMENT
Under license-for-payment policies, people struggling to satisfy court debt and reinstate their licenses
are at heightened legal risk. Often, people who lose their driver’s licenses have to choose between losing
their jobs (by not driving) and driving illegally in order to maintain employment. Faced with the choice
between job loss and the risk of being pulled over, most people continue to drive.19 For a suspended driver, a
routine traffic stop may turn into a prolonged police encounter. It can also result in vehicle impoundment.
After a vehicle is impounded, police may conduct an administrative “inventorying” of its contents, which
may expose the driver to more criminal liability if incriminating evidence is found. Drivers who receive
convictions for driving with a suspended license may also face steep fines, more court costs, additional timebased periods of suspension, or even mandatory incarceration.20
Even if a person subject to a driver’s license suspension never suffers these penal consequences, the
suspension largely confines the person to his or her home unless public or other transportation is available.
This limitation on movement resembles house arrest or incarceration, especially in rural or other isolated
areas. Thus, conditioning one’s lawful ability to drive on repayment functions as a hidden consequence
of violating a traffic or criminal law, a footnote to the formal sentence that may be far more long-lasting,
punitive, and destructive than the original penalty.
For many of these reasons, license-for-payment policies drew unflinching criticism from the United States
Department of Justice in its exhaustive report on the abusive traffic and criminal court system in Ferguson,
Missouri.21 There, the Department catalogued and condemned the discriminatory practices at play at
all levels of the system, designed to prey upon low-income black residents by trapping them in a cycle of
fees, fines, driver’s license suspension, and incarceration. These kinds of policies and practices exacerbate
existing disparities by further limiting economic opportunities, along with increasing and prolonging
exposure to criminal or traffic court penalties for these groups. Furthermore, they may heighten tensions
between targeted communities and law enforcement as contact increases and trust deteriorates.

COSTLY TO COMMUNITIES
When courts are used as revenue generators and debt collection policies rest on the false assumption that
everyone can afford to pay, communities suffer as well. From a fiscal standpoint, state and local officials
often feel pressure to increase revenues. However, license-for-payment policies may be no more effective
at enforcing the obligation to pay than other debt collection practices, such as garnishments or liens.22
Additionally, critics have identified a host of hidden costs and consequences of license-for-payment policies
that further call their effectiveness into question.23 States and localities must divert resources toward
administering criminal and traffic systems that become even more pressured by an influx of suspended
drivers and their ever-growing court debts.24
Communities also suffer because of new threats to public safety from the costs of enforcing laws against
driving with a suspended license. The number of drivers with suspended licenses due to court debt is
shockingly large in many states—roughly 1 in 6 drivers in Virginia, for example.25 Stopping, citing, and
potentially arresting a person for driving on a suspended license diverts police officers from focusing
on dangerous driving behaviors and otherwise promoting public safety.26 Courts are forced to process
additional cases.27 Jails house inmates who are guilty of nothing more than “driving while poor,” and
communities bear these unnecessary costs.28

1 _

Driven by Dollars: A State-By-State Analysis of Driver's License Suspension Laws for Failure to Pay Court Debt

49a

UNCONSTITUTIONAL
In several states, civil rights advocates have filed lawsuits challenging the constitutionality of licensefor-payment laws.29 Essentially, these lawsuits contend that automatic license suspension violates the
Due Process and Equal Protection Clauses by punishing people for their poverty. According to the U.S.
Department of Justice, which filed a statement of interest in support of plaintiffs challenging Virginia’s
automatic suspension statute, drivers have a fundamental “due process right to establish inability to
pay” when a state or locality seeks to suspend driver’s licenses for nonpayment of court debt.30 Typically,
violations of court orders are punished via contempt proceedings, and a person cannot be punished without
a hearing to determine whether the violation was intentional. Without an ability-to-pay hearing, automatic
license suspension is essentially a contempt proceeding—without the proceeding.
From a practical standpoint, drivers are often blindsided by license suspensions for court debt. Many states
do not provide meaningful opportunities for drivers to prevent or resolve a license suspension by showing
inability to pay the underlying debt. Disturbingly, many states even require people to pay when their sole
income is Social Security, TANF, or other need-based assistance.31 Because court debt can arise from traffic
infractions or low-level misdemeanors that do not carry the possibility of a significant fine or jail time, many
if not most low-income people proceed through court without the aid of lawyers. Drivers in this group likely
do not know about the consequences for nonpayment and the available constitutional protections, and in
any event are ill-positioned to assert them. Furthermore, as the U.S. Department of Justice observed, “in
addition to being unlawful, to the extent that these practices are not geared toward addressing public safety,
but rather toward raising revenue, they can cast doubt on the impartiality of the tribunal and erode trust
between local governments and their constituents.”32

VIRGINIA'S AUTOMATED SYSTEM RAISES CONSTITUTIONAL CONCERNS
In Virginia, roughly 65% of all outstanding suspension and revocation orders result from unpaid court debt.
In fact, nearly one million Virginia drivers have licenses suspended for nonpayment of court debt.33 Virginia
is one of 19 states in which driver’s license suspension is a mandatory consequence for nonpayment. State
law does not allow for an ability-to-pay determination prior to suspending the debtor’s license. Virginia’s
system is also highly automated. In almost all jurisdictions, court computer systems electronically transmit
a record of nonpayment to the Department of Motor Vehicles (DMV) shortly after the payment due date.
Upon receiving this record, DMV immediately flags the license as suspended. For these reasons, Virginia’s
automatic and mandatory license-for-payment system is highly problematic under the Due Process and
Equal Protection Clauses. Its system lacks adequate checks against suspensions that result from inability to
pay and, as a result, punishes people simply for their poverty.3'1

Legal Aid Justice Center I Fall 2017

50a

[j'j

FIMDONQS
We reviewed statutes governing licensing consequences for nonpayment of court debt in all 50 states
and the District of Columbia.35 A detailed state-by-state analysis is compiled in Appendix A to this report.
We found:
1. License-for-payment systems are ubiquitous.
Almost all states suspend driver’s licenses because of unpaid court debt despite the harms this practice
inflicts on both individual debtors and their communities. Forty-three states and the District of Columbia
use driver’s license suspension to enforce court debt. Three other states have laws that prevent renewals for
expired driver’s licenses in some cases of unpaid court debt.36 Only four states—California,37 Kentucky,
Georgia, and Wyoming—do not suspend for unpaid court debt at all.
2. License-for-payment systems punish people just for being poor.
Troublingly, in 40 states, driver’s licenses may be suspended without regard to the driver’s ability to pay at
the time of suspension. Only four states—Louisiana, Minnesota, New Hampshire, and Oklahoma—require
a determination that the person had the ability to pay and intentionally refused to do so.
3. In many states, driver’s license suspension is a mandatory consequence anytime a person does not
pay court debt on time.
Nineteen states—almost 40% of the nation—have rules that require driver’s license suspension following
a missed court debt payment deadline. Of these states, only New Hampshire requires a court to first
determine that the debtor has the ability to pay; suspension is mandatory if a court determines the debtor
has the ability to pay.38

ID

• Jr*

ct\°^

E

Driven by Dollars: A State-By-State Analysis of Driver's License Suspension Laws for Failure to Pay Court Debt

51a

In Virginia, drivers suspended for safety reasons can often reinstate their licenses faster than those
suspended for nonpayment. For example, a person convicted of reckless driving risks no more
than a six-month suspension of his or her license,40 while a suspension for failure to pay commonly
lasts for years.

In 24 other states and the District of Columbia, driver’s license suspension laws contain technical provisions
permitting discretion. However, anecdotally, practitioners report that these “discretionary” suspensions may
actually occur without much deliberation, or even without human intervention at all. As state governments
modernize methods of internal communication and link their agency databases, suspensions in these states
become even easier to automate and routinize. In reality, the discretion afforded by state law may just
be an empty promise, replaced by bureaucracies that instead produce driver’s license suspensions just as
mechanically as the 19 states with laws requiring them for nonpayment.
4. Suspensions for nonpayment are typically indefinite.
Of the 44 jurisdictions that suspend driver’s licenses for unpaid criminal or traffic court debt, 39 do so
indefinitely. In other words, in these states, driver’s licenses remain suspended until the state is satisfied
concerning payment, or until statutes of limitation on debt collection rules prevent the state from pursuing
debts any longer.39 Only five states—Idaho, Minnesota, New Mexico, Vermont, and Wisconsin—have laws
limiting the length of these suspensions.
5. Licensing consequences are not confined to debts for traffic-related convictions.
Although most jurisdictions (29 states and D.C.) employ license-for-payment systems to punish nonpayment
of debt incurred for traffic convictions only, more than one-quarter (14) of states suspend licenses for
nonpayment of both traffic and criminal court debt.41
Of the 14 states that apply license-for-payment to both traffic and criminal justice debt, five—Delaware,
Florida, Maine, Michigan, and Virginia—employ mandatory indefinite suspension without regard to
ability to pay.

REINSTATEMENT FEES
Once a person’s license is suspended, they typically must pay reinstatement fees—on top of monies owed to
the courts—in order to get their license back. Reinstatement fees can be hefty:
»
»
»
»
»
»

Alabama: $100
Michigan: $125 (+ $500 Driver Responsibility Fee if convicted of driving while suspended)
New Hampshire: $100
Nebraska: $125
Virginia: at least $145
Washington: $129

Legal Aid Justice Center I Fall 2017

52a

0

CONCLUSION AND RECOMMENDATIONS
Enforcing debts against people who can’t afford to pay puts them in a perpetual state of punishment.45
They can never atone, especially compared to wealthier people who can just write a check and be back
in good standing.
Given the devastating fallout from systems that condition driver’s licenses on court debt repayment—the
everyday and abstract harms inflicted upon human beings, communities, and governments—decision­
makers ought to abandon them in favor of existing civil means of collecting debts. Some states already
pursue unpaid court debts without resorting to driver’s license suspension,46 eliminating the danger that
vulnerable people will lose a critical means of supporting themselves and their dependents because of
inability to pay.
There is an emerging consensus that driver’s license suspension is a misguided and counterproductive tool
for collecting court debt. The American Association of Motor Vehicle Administrators (AAMVA) has
stated that driver’s license suspension should not be used for punishing social non-conformance, but should
instead be limited to taking dangerous drivers off the road.47 Similarly, the U.S. Department of Justice has
written that such suspensions “raise significant public policy concerns” and that governmental authorities
should “avoid suspending driver’s licenses as a debt collection tool, reserving suspension for cases in which it
would increase public safety.”48
Several states have taken steps to reduce or eliminate the use, or impact, of court debt suspensions.
In addition to California’s decision to cease suspending additional licenses for court debt (see below),
Colorado earlier in 2017 amended existing law, reducing the misdemeanor of driving on a suspended license
(punishable by up to six months of jail time) to a traffic infraction carrying no jail time in cases where the
license was suspended due to court debt.49 Likewise, these counterproductive suspension policies are gaining
attention from a broad range of advocates and receiving strong bipartisan scrutiny—groups as diverse as the
ACLU and legal aid organizations to Right on Crime50 and the Institute for Justice51 have recognized that
these laws need to change.

ADVOCATES WIN REFORMS TO CALIFORNIA'S FAILED
LICENSE-FOR-PAYMENT SYSTEM
In June 2017, California ended its license-for-payment system. AB 103, which took effect July 1, 2017, bans
driver’s license suspension for outstanding traffic fines going forward.42 This policy change came on the
heels of coordinated advocacy by Back on the Road California and its affiliated organizations, including
litigation brought on behalf of suspended drivers by ACLU of Northern California, Bay Area Legal Aid,
Lawyers’ Committee for Civil Rights of the San Francisco Bay Area, Legal Services for Prisoners with
Children, Pillsbury Winthrop Shaw Pittman LLP, and Western Center on Law & Poverty. Litigation
remains pending, however, because the parties dispute whether reforms provide relief to the hundreds of
thousands of drivers who suffered under the discarded policy.43
Governor Jerry Brown wrote, in endorsing reform, that license-for-payment suspension “places an undue
burden on those who cannot afford to pay. . . . Often, the primary consequence of a driver’s license
suspension is the inability to legally drive to work or take one’s children to school.”44
j

Driven by Dollars: A State-By-State Analysis of Driver's License Suspension Laws for Failure to Pay Court Debt

53a

States and localities opting to maintain these systems must bring them into compliance with the U.S.
Constitution by developing enough internal checks to ensure that no one is punished for his or her poverty.
No license should be suspended without: notice of the alleged default; an opportunity to be heard as to
whether such default was intentional or was instead due to financial inability, incapacity, or some other
reason; and a judicial determination that the default was willful. Given the consequences that flow from
these proceedings, states should provide lawyers for these ability-to-pay determinations.
In turn, state executive agencies should monitor civil rights consequences of license suspension for
nonpayment, seeking out any disparities based on race and economic status. They should also work across
agencies to identify unnecessary barriers to driver’s license reinstatement. For example, driver’s license
reinstatement fees52 should be reasonable in light of ability to pay, with flexible options such as installment
or deferred payment plans.
More broadly, states and localities should also carefully reevaluate existing rules on court costs and fines,
and explore alternative programs. They should reconsider relying so heavily on so-called “user fees” to fund
their court systems. Indeed, setting aside concerns about how revenue generation may taint the possibility
of dispassionate justice, much of the debt that court systems assess may never result in actual revenue.53
At a minimum, courts should tailor costs to align with a person’s ability to pay by engaging a defendant in
a colloquy regarding his or her financial position, broadly conceived to include all reasonable and regular
expenses for self and dependents. As it concerns fines, courts should also explore non-traditional sentencing
options such as community service, day fines,5'1 and enrichment or skill-building programs.55 Courts should
have a role in setting fair penalties that take into account people’s ability to pay, but they should not have
ongoing responsibility for collecting debts.56
When driver’s license suspension is an automatic, mandatory, and indefinite consequence for missing a
payment deadline for any reason—as it is in many states—drivers living paycheck-to-paycheck or relying on
public assistance because of disability or poverty are particularly at risk. Since virtually all of these systems
also lack built-in safeguards to prevent suspensions against drivers who simply do not have the means to
pay on time, they arbitrarily and unapologetically equate poverty with defiance. Most states are set up
to suspend the license first and leave the driver to sort it all out afterwards. Low-income people thrown
into this system are trapped in a perpetual state of indebtedness to the state, stripped of the very means
they would use to generate the resources needed to clear the debt, and in a far worse position to care for
themselves and their families.

Legal Aid Justice Center I Fall 2017

54a

0

r

ENDNOTES
1.
2.
3.
4.

5.
6.

7.

8.

9.
10.
11.

12.
13.

14.
15.
16.

17.
18.
19.
20.
21.
22.
23.
24.
25.
26.
27.

28.

[jvj

Andrea M. Marsh, Nat’l Ctr. on State Courts, Trends in State Courts: Rethinking Driver's License Suspensions for Nonpayment of Fines and Fees, at 21 (2017).
N.C. Div. of Motor Vehicles, Response to FOIA Request (Aug. 10, 2017).
Complaint at 5, Stinnie v. Holcomb, No. 3:l6-cv~44 (W.D. Va. July 6, 2016), available at https://www.jusrice4all.org/wp-content/uploads/2016/Q7/ComplaintDfivers-License-Suspenxton-ibr-CQurt-Debt.pdf (last visited Sept. 6,2017).
Complaint at 2, Thomas v. Haslam, No. 3:17-cv-05 (M.D. Tenn. Jan 4, 2017), available at http://www.tcnnesscan.com/story/news/2Q17/Ql/05/lawsuit-tennesscedrivers-license>law>punishcs~poor/96204462/ (last visited Sept. 6, 2017) (approximately 146,000 Tennesseans have lost their licenses for failure to pay court
debt since the Tennessee licensc-for-payment system went into effect in 2012).
Complaint at 2, Fowler v. Johnson, No. 2:17~cv~l 14411 (E.D. Mich. May 4,2017),
This report defines "court debt" as court costs and fines that arise out of convictions for violating traffic and criminal laws. For purposes of this report, court
costs are generally assessed and imposed around the time of sentencing in a traffic or criminal case, amounting to the administrative fees the defendant incurs
in his or her contact with the court system. Jurisdictions charge defendants—most typically, only those who have been convicted —these fees to recoup the
administrative costs of processing the case. Some examples of court costs include: public defender fees, jury fees, courthouse use and maintenance fees, and
incarceration fees. Fines are purely punitive, seeking to exact retribution for the offense and deter future wrongdoing by forcing the losing defendant to pay
the state or locality some amount of money. This report does not include an analysis of drivers license suspension for nonpayment of restitution, another
form of court debt that is ordered in some cases to obligate the defendant to pay for the harm caused. Some states suspend driver’s licenses for nonpayment
of restitution. See, e.g., Va. Code § 46.2-395 (A) (“Any person, whether licensed by Virginia or not, who drives a motor vehicle on the highways in the
Commonwealth shall thereby, as a condition of such driving, consent to pay all... restitution ... assessed against him ....”).
402 U.S. 535,539 (1971). See also Vanita Gupta & Lisa Foster, Civil Rights Div., U.S. Dep’t of Justice, “Dear Colleague" Letter, at 6 (March 14,2016)
(hereinafter “Dear Colleague Letter"), available at https://www.justice.gov/crt/file/83246l/download (last visited Sept. 2, 2017) (noting, “[rjesearch has
consistently found that having a valid driver’s license can be crucial to individuals’ ability to maintain a job, pursue educational opportunities, and care for
families").
Restricted licenses for people who owe court debt, which are authorized in the laws of some states, are sometimes cited as a viable alternative that allow
debtors to drive for limited purposes such as to and from work. However, they may rarely be viable in practice. In Virginia, for example, numerous statutory
restrictions make them inaccessible in practice to most court debtors. Va. Code §§ 18.2-271.1(E), 46.2—395(E) (among other requirements and limitations,
applicant must show “written verification of employment” in addition to one or more approved purposes for using the restricted license).
See Jon A. Carnegie et al., N.J. Dep’t ofTrans., Driver’s License Suspensions, Impacts and Fairness Study, at 66 (2007).
Alana Semuels, No Drivers License, No Job, The Atlantic (Jun. 15, 2016), available at https://www.thcatlantie.com/business/archive/2Q16/06/no-driverslicense-no-iob/486653/ (last visited Sept. 2, 2017).
Adie Tomer et al., Missed Opportunity: Transit and Jobs in Metropolitan America, at 12 (2011), available at hrtps://www.hrookmps.edu/research/missedoppominitv-rransir-and-iohs-m-Tnetropolitan-americfl/ (last visited Sept. 2, 2017) (“Across all neighborhoods served by some form of transit in the 100 largest
metro areas, the typical working-age resident can reach about 30 percent of metropolitan jobs within 90 minutes of travel time.”).
Mike Maciag, Riding Transit Takes A/most Twice as Long as Dmnng, Governing (Feb. 2017), available at hrrp://www.goveming.com/topics/transportation?
mfrastructure/gQv-rranxir-drivinp.rimex.html (last visited Sept. 2, 2017).
Back on the Road California, Stopped, Fined, Arrested: Racial Bias in Policing and Traffic Courts in California, at 27 (2016) (hereinafter “Stopped, Fined,
Arrested"), available at http://ebclc.org/wp-content/up1oads/2016/04/Srnpped_Fmed_Arrested_BQTRCA.pdf (last visited Sept. 2,2017). See also Semuels,
supra note 10.
See Carnegie, supra note 9 at 56 (finding that 42 percent of survey respondents, New Jersey licensees suspended for court debt, lost their jobs as a result of
suspension; 45 percent of those that lost their jobs could not find another job; 88 percent of those who did find another job reported a decrease in income).
Stopped, Fined, Arrested, supra note 13, at 6.
Brief of Va. State Conference of the NAACP as Amicus Curiae Opposing Defendant’s Motion to Dismiss, Affidavit of Aaron Bloomfield, Stinnie, et al.
v. Holcomb, Civ. No. 3:16-cv-44 (W.D. Va. Nov. 3, 2016), available at https:/Ayww.jusrice4fl11,nrp/wp-cnnrenr/up1oads/2016/ll/VA-NAACP-Amicu&-BriefQpposmg-Motion-ro-Dismiss.pdf (last visited Sept. 2,2017).
Id.
See, e.g., Univ. of Wis. Milwaukee Emp. &.Training Inst., Driver’s License Issues and Recommendations (2015), available at http://www4.uwm.edu/eti/2015/
DriversIssuesTune20l5.pdf (last visited Sept. 2, 2017).
Suspended/Revoked Working Grp., Am. Ass’n of Motor Vehicle Adm’rs, Best Practices Guide to Reducing Suspended Drivers, at 4-5 (2013) (hereinafter
“AAMVA”), available at htrp://www.ftflniwfl.f>rp/Suspended-flnd-Revokcd-Drivers-Wnrkmp-Group/ (last visited Sept. 2, 2017).
E.g., Va. Code § 46.2-301(C).
Civil Rights Div., U.S. Dep’t of Justice, Investigation of the Ferguson Police Department (2015), a\>ailable at https://www.justice.gov/sites/default/files/Qpa/
pre.<iS-Te)eARe*/attflchinents/2Ql5/Q3/04/ferguson_po1ice_departTncnt_yeport.pdf (last visited Sept. 2, 2017).
See Office of Program Policy Analysis & Government Accountability, FI. Leg., Clerks of Court Generally Are Meeting the System's Collections Performance
Standards, Report No. 07-21 (Mar. 2007), available at http:/Avww.oppflga.state.fl.us/MonirorDocs/Reports/pdf/Q721rpt.pdf (last visited Sept. 2, 2017).
See, e.g., Rebekah Diller, Brennan Center for Justice, N.Y.U. Sch. of Law, The Hidden Costs of Florida's Criminal Justice Fees, at 9 (2010), available at https://
www.brcnnanccnter.org/sites/dcfault/files/legaev/Tustice/FlnridflF&F.pdf (last visited Sept. 2, 2017).
AAMVA, supra note 19 at 12-15.
Angela Ciolfi et al., Legal Aid Justice Center, Driven Deeper Into Debt: Unrealistic Repayment Options Hurt Lotv-Jncome Court Debtors, at 7 (2016), amilable at
hrtpx://www.jusricp4fl11.org/wp-conmnt/uploads/20l6/05/Driven-Deeper-lnto-Debt-Paymenr-Plan-Analysis-Final.pdf(last visited Sept. 2, 2017).
AAMVA, supra note 19 at 13.
Id. at 14.

Jd. Data from Virginia are illustrative. In 2015, roughly 88% of Virginia convictions for driving with a suspended license were rooted in an underlying
suspension due to unpaid court debt. Va. Dep’t of Motor Vehicles, Response to FOIA Request (July 6, 2016) (on file with authors). In Virginia, driving with
a suspended license is a common reason for incarceration. Courts are authorized to sentence offenders to jail on the first offense, and three convictions
within a 10-year period carries a mandatory minimum jail sentence of 10 days. Va. Code § 46.2-30l(C). According to the Albemarle-Charlottesville Regional

Driven by Dollars: A State-By-State Analysis of Driver's License Suspension Laws for Failure to Pay Court Debt

55a

29.

30.
31.

32.
33.
34.
35.
36.
37.
38.
39.
40.
41.
42.
43.
44.
45.
46.
47.

48.
49.
50.
51.

52.
53.

54.

55.
56.

Jail, incarcerating a person costs approximately $90 per inmate per day. Christian Henrichson et al., Vera Institute of Justice, The Price of Jails: Measuring
the Taxpayer Cost of Local Incarceration, at 27 (2015), available at https://stofage.goog1eapis.com/vera-web-assets/downloads/Publications/the-price-of-jailsmeasuring-rhe-taxpayer-cost-of-local-incarceration/legacy downloads/price-nf-jails.pdf (last visited Sept. 2, 2017).
Eg., Hernandez v. Cal. Dep’t of Motor Vehicles, No. RG16836460 (Super. Ct. of Alameda Cnty., filed Oct. 25, 2016), available at http://ehclc.org/wp--contenr/
uploads/2016/ll/Hemande2-et-al-v.-CA-DMV-Complaint.pdf (last visited Sept. 6, 2017) (California); FouJer, No. 2:17-cv-1144ll (Michigan); DiFrancesco v.
Bullock, No. CVT7-66-BU-SEH (D. Mont., filed Aug. 31, 2017), available at http://equaliusticeunderlaw.Org/wp/wp-conrefit7up1oads/7.017/08/l-Complamppdf
(last visited Sept. 6, 2017) (Montana); Thomas, No. 3:17-cv-00005 (Tennessee); Stinnie, No. 3:16-cv-44 (Virginia).
Dear Colleague Letter, supra note 7, at 6.
See, e.g., City of Richland v. Wakefield, I86Wash. 2d 596, 380 P.3d 459 (Wash. 2016) (reversing denial of court debtor’s request to modify her obligation to
pay costs due to indigence, in part because “federal law prohibits courts from ordering defendants to pay [court debt] if the person’s only source of income is
social security disability.”). “Under the Social Security Act, ‘none of the moneys paid’ as part of social security disability benefits ‘shall be subject to execution,
levy, attachment, garnishment, or other legal process, or to the operation of any bankruptcy or insolvency law.’” Id. at 607-08 (citing 42 U.S.C. § 407(a))
(emphasis in original).
Dear Colleague Letter, supra note 7, at 2 (citing Conference of State Court Administrators, 2011-2012 Policy Paper, Courts are Not Revenue Centers (2012),
available at hrrps://csgjusticecenter.org/wp-contenf/uplQads/2Q13/07/2QIl-12-CQSCA-report.pdf (last visited Sept. 2, 2017)).
Complaint at 5, Stinnie, No. 3:16-cv-44.
See id. at 46-53.
We asked local practitioners to verify our analysis of their state’s laws. We were unable to identify local practitioners to verify our analysis in the following
states: Arizona, Delaware, Hawaii, Massachusetts, Missouri, North Dakota, Oklahoma, Oregon, South Dakota, Utah, Vermont, Wyoming.
These states are: Hawaii (H.C.T.R. Rule 15(b)), Illinois (625 I.L.C.S. § 5/6-306.6), and Texas (Tex. Transp. Code Ann. §§ 706.002, 706.004).
California, supra note 3.
N.H. Rev. St. § 263:56-a.
“Indefinite” means subject only to limitations on collections for purposes of enforcing money judgments. These periods may be incredibly long. For example,
in Virginia, court debt is enforceable for at least 10 or 20 years depending on the court in which it originated. Va. Code § 19.2-341.
Va. Code §46.2-392.
Louisiana law allows for driver’s license suspension for court debt associated with felonies only. Act of June 15, 2017, No. 260, art. 885.1 2017 La. Sess. Law
Serv. (West).
S.B. 185, 2017-18 Leg., Reg. Sess. (Cal. 2017)
Hernandez ef al, No. RG16836460.
Edmund G. Brown, Jr., 2017-2018 California State Budget, at 35 (2017), available at http://www.ebudget.ca.gov/FullBudgetSummary.pdf (last visited Sept. 2,
2017).
See generally Alexes Harris, A Pound of Flesh: Monetary Sanctions as Punishment for the Poor (2016) (describing how monetary sanctions “symbolically,
physically, and perpetually punish[] the poor”).
See, e.g., Ga. Code Ann. § 17-10-20(c).
AAMVA, supra note 19 at 5. The AAMVA’s Suspended/Revoked Working Group, in the Best Practices Guide, focuses on failure to pay court debt for non­
moving violations (as well as for other failures to pay such assessments as taxes, child support, and alimony), and does not speak specifically to failure to pay
for moving violations.
Dear Colleague Letter, supra note 7 at 7.
H.B. 17-1162, 71st Gen. Assemb., 1st Reg. Sess. (Colo. 2017).
See, e.g., Marc Levin &. Joanna Weiss, Suspending driver’s licenses creates a vicious cycle, USAToday (Feb. 21, 2017), available at https://www.usatodav.com/story/
opinion/20I7/02/2t/driver-license-suspension-rot irr-dehr-reform-coliimn/98016910/ (last visited Sept. 2, 2017).
See, e.g., Brief of Institute for Justice as Amicus Curiae Supporting Appellant’s Opening Brief at 1, Stinnie v. Holcomb, Case No. 17-1740 (4th Cir. 2017)
(pending), available at hrfps://www.iustice4a11.orp/wp-cnnfent/up1oads/2017/08/22-Amicus-Institute-for-Tustice.pdf (last visited Sept. 6, 2017) (describing
Virginia’s court debt suspension law, in penalizing drivers for being poor, as “irrational and unconstitutional”).
Reinstatement fees in Virginia, for example, are at least $145. Va. Dep’t of Motor Vehicles, DMV Fees, at 2 (July 1, 2017), available at htrps://www.dmv.virginia.
gov/webdoc/pdf/dmv2Ql.pdf (last visited Sept. 2, 2017).
For example, Virginia’s Auditor of Public Accounts documented that between 2008 and 2012, Virginia’s courts actually collected only about half of the debt
assessed each year. Auditor of Public Accounts, Comm. ofVa., Commonwealth Court Collections Review, at 1 (2013), available at http://www.iustice4all.Qrg/
wp-content/uploads/2Q14/12/APA-Report-CourtsAccQnfirsReceivahleSR20I2.pdf (last visited Sept. 2, 2017).
Day fines are unlike traditional one-size-fits-all fines because they are “income-calibrated,” meaning they are based on the offender’s net income minus
deductions for dependents, fixed obligations, and basic living expenses. Edwin Zedlewski, Alternatives to Custodial Supervision: The Day Fine, at 1 (2010),
available at hrrps://www.ncirs.gov/ndffi1es1/nii/granrs/230401.pdf (last visited Sept. 2, 2017).
E.g., Roopal Patel &Meghna Philip, Criminal Justice Debt: A Toolkit for Action, at 24 (2012), available at https://www.brennancenter.org/sites/default/files/
legacv/puh1ications/Crimmal%2Qlustice%20Deht%20Backgrofind%20for%2Qweb.pdf (last visited Sept. 2, 2017).
The National Task Force on Fines, Fees, and Bail Practices published a bench card for judges, identifying a variety of possible sanctions (including these) that
courts “should consider" when debtors lack the ability to pay. See Nat’l Task Force on Fines, Fees, and Bail Practices, Nat’l Ctr. for St. Cts., Lawful Collection
of Legal Financial Obligations (Feb. 2, 2017), available at http://www.ncsc. org/—-/media/images/Topics/Fines%2QFees/BenchCard_FINAL_Feb2_2Q17.ashx (last
visited Sept. 2, 2017).

Legal Aid Justice Center I Fall 2017

56a

APPENDIX A
STATE-BY-STATE ANALYSIS OF LICENSE-FOR-PAYMENT LAWS

Jurisdiction

for
nonpayment
of court debt

Do«s state
law require
consideration
of ability to
pay before
suspension?

Is suspension
mandatory or
discretionary?

Time between
payment deadline
and suspension of
license

Duration of
suspension'

Primary legal citation

Alabama

Yes

No

Discretionary

0-30 days

Indefinite

A.R.Cr. P. Rule 26.11(0(3)

Alaska

Yes

No

Discretionary

0 - 30 days

Indefinite

Ak. St. § 28.15.181(g)

Arizona

Yes

No

Discretionary

0-30 days

Indefinite

A.R.S. § 28-1601(A)

In ense
suspensions

Arkansas

Yes

No

Discretionary

0-30 days

indefinite

A.C.A.S. § 16-13-708

California

No

N/A

N/A

N/A

N/A

N/A

Colorado

Yes

No

Mandatory

0 - 30 days

Indefinite

C.R.S.A. §42-2-122

Connecticut

Yes

No

Mandatory

0 - 30 days

Indefinite

C.G.S.A. § 14-140

District of
Columbia

Yes

No

Discretionary

0 - 30 days

Indefinite

18D.C.M.R. §304

Delaware

Yes

No

Mandatory

0 • 30 days

Indefinite

21 Del. Code §§ 2731(b); 2732(b)

Florida

Yes

No

Mandatory

0 - 30 days

Indefinite

Fla.Stat. Ann. §§ 322.245;
322.251

Georgia

No

N/A

N/A

N/A

N/A

N/A

Hawaii

No*

N/A

N/A

N/A

N/A

N/A

Idaho

Yes

No

Discretionary

0-30 days

Definite*

Id. Code §49-1505

Illinois

No**

N/A

N/A

N/A

N/A

N/A

Indiana

Yes

No

Discretionary

0-30 days

Indefinite

In. Code §§ 9-30-3-8,9-30-11-3,
9-30-11-4, 9-30-11-5

Iowa

Yes

No

Mandatory

More than 30 days

Indefinite

I.C.A. §321.210a

Kansas

Yes

No

Mandatory

More than 30 days

Indefinite

Kan. Stat. Ann. § 8-2110

Kentucky

No

N/A

N/A

N/A

N/A

N/A

Louisiana

Yes'

Yes

Discretionary

More than 30 days

Indefinite

Act of June 15, 2017, No. 260,
art. 885.1 2017 La. Sess. Law
Serv.

Maine

Yes

No

Mandatory

0 - 30 days

Indefinite

14 M.R.S. § 3141; 29-a M.R.S. §
2608

Maryland

Yes

N/A

Discretionary

0-30 days

Indefinite

Md. Code, Trans. §27-103

Massachusetts

Yes

No

Mandatory

More than 30 days

Indefinite

M.G.L.A. 90C § 3

Michigan

Yes

No

Mandatory

0-30 days

Indefinite

M.C.L.A. § 257.321a

Minnesota

Yes

Yes

Discretionary

0 - 30 days

Definiteb

Minn. St. Ann. § 171.16

Mississippi

Yes*

No

Discretionary

0-30 days

Indefinite

Miss. Code Ann. § 63-1-53

Missouri

Yes

No

Mandatory

More than 30 days

Indefinite

Mo. Ann. St. §302.341

Montana

Yes

No

Discretionary

0 - 30 days

Indefinite

M.C.A.§ 61-5-214

Nebraska

Yes

No

Mandatory

More than 30 days

Indefinite

Neb. Rev. St. §60-4,100

Nevada

Yes

No

Discretionary

0- 30 days

Indefinite

N.R.S. §§ 176.064,484A.900

/

Suspensions for nonpayment of traffic court debt only

jl^]

Driven by Dollars: A State-By-State Analysis of Driver's License Suspension Laws for Failure to Pay Court Debt

57a

New Hampshire

Yes

Yes

Mandatory

0 - 30 days

Indefinite

N.H. Rev. St. § 263:56-a

New Jersey

Yes

No*

Discretionary

0 - 30 days

Indefinite

N.J.S.A. §§2B:12-3, 39:4-139.10

New Mexico

Yes

No

Discretionary

0 - 30 days

Definite*

N.M.S.A. §66-5-30

New York

Yes

No

Discretionary

More than 30 days

Indefinite

N.Y.Veh. &Traf. § S10(4-a)

North Carolina

Yes

No

Mandatory

More than 30 days

Indefinite

N.C.G.S.A. §§ 20-24.1,20-24.2

North Dakota

Yes

No

Discretionary

0 - 30 days

Indefinite

N.D.C.C. §§ 39-06-32, 39-06-33,
39-06-35

Ohio

Yes

No

Discretionary

0 - 30 days

Indefinite

Oh. Cd. Ann. § 4510.22

Oklahoma

Yes

Yes

Discretionary

0-30 days

Indefinite

22 Okl. St. Ann. § 983, 47 Okl. St.
Ann. § 6-206

Oregon

Yes

No

Discretionary

0 - 30 days

Indefinite

O.R.S. § 809.210

Pennsylvania

Yes

No

Mandatory

0-30 days

Indefinite

75 Pa. C.S.A. § 1533

Rhode Island

Yes

No

Discretionary

0 - 30 days

Indefinite

Rl ST §31-11-25

South Carolina

Yes

No

Discretionary

0-30 days

Indefinite

S.C. Code Ann. § 56-25-20

South Dakota

Yes

No

Discretionary

0-30 days

Indefinite

S.D.C.t. § 32-12-49

Tennessee

Yes

No

Mandatory

0 - 30 days

Indefinite

Tenn. Code Ann. §§ 40-24105(b), 40-24-104(b)

Texas

No*

N/A

N/A

N/A

N/A

N/A

Utah

Yes

No

Discretionary

0-30 days

Indefinite

U.C.A. § 53-3-221; U.A.C.
R708-35

Vermont

Yes

No

Mandatory

0 - 30 days

Virginia

Yes

No

Mandatory

0 - 30 days

Indefinite

Va. Code Ann. §46.2-395

Washington

Yes

No

Mandatory

More than 30 days

Indefinite

R.C.W.A. §§46.20.245,
46.20.289

West Virginia

Yes

No

Mandatory

More than 30 days

Indefinite

W. Va. Code §§ 17B-3-3a,
17B-3-3c

Wisconsin

Yes

No

Discretionary

0-30 days

Definite*

Wi. St. § 345.47, 800.095

Wyoming

No

N/A

N/A

N/A

N/A

N/A

Definited
4V.S.A. § 1109

1: “Mandatory" means driver’s license suspension is a required consequence for nonpayment of traffic and/or criminal court debt, subject in some states to a finding
of willfulness. “Discretionary" means driver’s license suspension may follow nonpayment of traffic and/or criminal court debt, within the discretion of the court or
motor vehicle agency. According to anecdotal reports from local practitioners we consulted, many states and localities regularly apply suspensions automatically
even though it is not required by law.
2: jurisdictions vary considerably with respect to the timing of a driver’s license suspension following a missed payment deadline. For simplicity and ease of
reference, we separated this information into two broad categories. In general, states in the “more than 30 days" category have policies causing a person to lose his
or her driver’s license within 60 to 90 days of a missed payment deadlines.
3: “Indefinite” means subject only to limitations on collections for purposes of enforcing money judgments. These periods may be incredibly long. For example, in
Virginia, court debt is collectable for at least 10 or 20 years depending on the court from which it originated. Va. Code § 19.2-341.
Suspensions for nonpayment of felony criminal court debt only
^: In Chicago, licenses may be suspended for nonpayment of 10 or more parking tickets. Driver’s License Suspension, City of Chicago,
available at https://www.citYofchicago.org/eitY/cn/depts/fin/supp info/revenuc/hoor tcny informatiori/driver s liccnsesuspcnsion.hfml
(last visited Sept. 2, 2017).
%: Nonpayment of court debt may prevent the debtor from renewing the driver’s license if it expires. However, under Texas’ "Driver Responsibility Program” (DRP)
certain traffic offenses carry surcharges imposed by the Department of Public Safety in addition to court-imposed costs and fines. If a person required to pay a
DRP surcharge docs not pay on time, his or her driver’s license is automatically suspended.” Texas Appleseed, Pay or Stay: The High Costs ofJailing Texans for
Fines & Fees (February 2017), available at https://www.tcxasapplesced.org/sitcs/default/files/PflyorStay Report final Fch2017.pdf (last visited Sept. 15, 2017).
Pursuant to a settlement agreement, as of January 2017 the Mississippi Department of Public Safety has rescinded its policy of suspending licenses for failure to
pay fines under Miss. Code Ann. § 63-1-53.
a: 90 days max, but license may not be reinstatement until court debt satisfied
b: 30 days or until court notifies motor vehicle agency that the debt has been paid
c: 1 year or until amount due is paid, whichever is earlier (but motor vehicle agency has discretion to extend indefinitely)
d: 30 days or until debt satisfied, whichever is earlier
e: maximum 1 year

Legal Aid Justice Center I Fall 2017

58a

[''l '*)]

**69

mm

®8& »»6io}:m

[ <gtyB» «ansqp) m&mm ^mm,
I

MM«<I3
«gmip®®TO

owmw«

aas«®ipa«@)®^|gp

an^HSgjigBBna^ggj

l(VI3jni|S>l

qjj^l) <^ipa^ ®£sqp£BBg

j&
sk,
<«Hoa^ ®»«sayj gg®0

^

ag^ffigjpa^gj

■spas®*** qjq) .fl® ^«b agepsj) £•> ‘••©sgp ^ tn^ 'Statfffi»*yj g>tub (piwinpQ) nipoa^
«*in9*t!'i5$ ^O^'aj'lJEOp «UE '•*Sa» ilj^MiJi--)
%0^ll ‘^SBHQg) WnUMW® (flDB saaS^piq] ^jawBonea
|p$3>‘®*8fflaijps>‘8ipBSS|) aB QjpUS tflSHB 09 sssqpoj) 0JSaiB«8(p©<H> &3®S*qj® &qpK0 (poe
atuumonn® ^i«»fiajaj] ©aitm) «mo
'#.»*»«£ ®g apisil
aago wi^uoi) |}thb '»u>qp^ ■*90Sg*i}0xe
au^stqjjwsippa an^spQ^jjffipsqpifljpotassg) sq^cp) £gpo$g ®pg tflfeU) ®os^a$o^W 9®“!) **$£.

miiMSD aoyLSfmp
OPfTVOiniB

»> APPENDIX U «<

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
(Charlottesville Division)

DAMIAN STINNIE, et aL,
Plaintiffs,
v.
RICHARD D. HOLCOMB,
Defendant.

)
)
)
)
)
)
)
)
)
)

Case No.: 3:16-CV-00044

STATEMENT OF INTEREST OF THE UNITED STATES
A driver’s license is often essential to a person’s well-being, including a person’s ability
to maintain a job, pursue educational opportunities, or care for children or other family.
Accordingly, the Supreme Court has recognized a driver’s license as a constitutionally protected
interest. Plaintiffs allege that Virginia officials unconstitutionally deprive people of this
important interest by automatically suspending the driver’s licenses of those who fail to pay
court fines or fees, without providing adequate process and without assessing whether the failure
to pay was willful or the result of a defendant’s inability to pay.
The United States files this Statement of Interest to assist the Court in considering the
important constitutional questions presented. It is the position of the United States that the
suspension of a person’s driver’s license in response to the failure to pay court debt without
providing a person with adequate notice and a meaningful opportunity to be heard prior to the
suspension constitutes a deprivation of a protected interest without due process in violation of the
Fourteenth Amendment. Further, suspending the driver’s licenses of those who fail to pay fines
or fees without inquiring into whether that failure to pay was willful or instead the result of an

Case 3:16-cv-00044-NKM-JCH Document 27 Filed 11/07/16 Page 1 of 22 Pageid#: 364
60a

*

-

j

a

;

*

:.r

■

*»•
*

i

■*

■ ?

<r
if

\:

-

1

inability to pay may result in penalizing indigent individuals solely because of their poverty, in
violation of the due process and equal protection clauses of the Fourteenth Amendment.
INTEREST OF THE UNITED STATES
The United States has authority to file this Statement of Interest pursuant to 28 U.S.C.
§ 517, which permits the Attorney General to attend to the interests of the United States in any
case pending in federal court. The United States has a strong interest in ensuring that state and
local criminal justice systems operate in a manner that is consistent with constitutional
requirements. The United States enforces the law enforcement misconduct provisions of the
Violent Crime Control and Law Enforcement Act of 1994,42 U.S.C. § 14141, which authorizes
the Attorney General to file lawsuits seeking declaratory and injunctive relief to reform law
enforcement conduct that deprives individuals of rights protected by the Constitution or federal
law. Pursuant to this statute, the United States has conducted investigations and secured
injunctive relief in civil cases to ensure that local justice systems respect the due process and
equal protection rights of those charged with offenses. See, e.g., Dep’t of Justice, Civil Rights
Division, Investigation of the Ferguson Police Department (2015) at 50-51,101 (specifically
identifying harms of imposing driver’s license suspensions in response to nonpayment of fines
and fees); Consent Decree, United States v. City of Ferguson, Mo., 16-cv-180 (E.D. Mo. filed
Feb. 10, 2016) [ECF No. 41] atjy 351-52 (setting forth requirements regarding driver’s license
suspensions).
The United States has also taken other action to address the specific problem of
inequality in the imposition and enforcement of court fines and fees. In December 2015, the
Department’s Office for Access to Justice, Civil Rights Division, and Office of Justice Programs
convened a meeting of policymakers, judges, prosecutors, defense attorneys, and advocates to

Case 3:16-cv-00044-NKM-JCH Document 27 Filed 11/07/16 Page 2 of 22 Pageid#: 365
61a

discuss how certain practices with respect to the imposition and enforcement of criminal justice
fines and fees—including the use of license suspensions as a means of coercing the payment of
criminal justice fines and fees—can result in unlawful and harmful conduct. In September 2016,
the Department held a second convening on these issues in order to highlight positive measures
that have been implemented and identify continuing areas of concern.
Additionally, in March 2016, the Department provided a package of resources, including
a grant solicitation, to state and local courts to support the ongoing work of state judges, court
administrators, policymakers, and advocates to ensure equal justice for all, regardless of a
person’s financial circumstances. Together with the announcement of the grant program and
other support, the Department also issued a guidance letter for state and local courts to clarify the
legal framework that governs the enforcement of court fines and fees. Within that guidance, the
Department raised concerns regarding using driver’s license suspensions as a debt collection
tool, and made clear that “[i]f a Defendant’s driver’s license is suspended because of failure to
pay a fine, such a suspension may be unlawful if the defendant was deprived of his due process
right to establish inability to pay.”1

BACKGROUND
Some jurisdictions in the United States authorize the suspension of driver’s licenses not
only in situations in which a driver poses a risk to public safety, but also as a consequence for
failing to pay court debt.2 In California, for instance, reports show that over a recent eight-year
period more than 4.2 million individuals, or 17 percent of California’s driving population, have
1
Principal Deputy Assistant Attorney General of the Civil Rights Division Vanita Gupta and
Director of the Office of Access to Justice Lisa Foster, Dear Colleague Letter (Mar. 14, 2016)
(hereinafter “March 14, 2016 Dear Colleague Letter”), available at
https://www.justice.gov/crt/file/832461/download.
2
For clarity and consistency with the terminology used in the Complaint, the United States uses the
term “court debt” herein to refer to all “fines, costs, forfeitures, restitution, or penalties” assessed by a
court against a person resulting from a traffic or criminal proceeding. Complaint at J 29.

Case 3:16-cv-00044-NKM-JCH Document 27 Filed 11/07/16 Page 3 of 22 Pageid#: 366
62a

had their driver’s licenses suspended as a result of a failure to appear or pay fines and fees.3 In
Virginia, the Department of Motor Vehicles reported that as of 2015, the driver’s licenses of
approximately 900,000 individuals, or one in six licensed drivers, were under suspension for
nonpayment of fines and court costs. See Complaint [ECF No. 1] at

327-28.4

While driver’s license suspensions vary in both process and scope across different
jurisdictions, using driver’s license suspensions to compel the payment of outstanding court debt,
and the resulting punishment of people who cannot afford to pay, has received significant
attention in recent years. As the Department noted in its March 14,2016 Dear Colleague Letter,
researchers have raised concerns regarding the substantial harm this practice imposes on
individuals, as well as its efficacy—including that it undermines public safety interests and
inhibits a person’s ability to pay owed fines and fees.5 Some jurisdictions have enacted, or are
actively considering, legislation or other measures to limit the circumstances in which a driver’s
license may be suspended. See, e.g., Mo. Ann. Stat. § 302.341 (limiting scope of Missouri’s
practice of suspending driver’s licenses for nonpayment to cases involving non-minor moving
violations); Wash. Rev. Code Ann. § 46.20.289 (ending Washington’s practice of suspending
licenses for nonpayment in cases involving non-moving traffic violations). And specific license

3
Lawyers’ Committee for Civil Rights, Not Just a Ferguson Problem: How Traffic Courts Drive
Inequality in California 13-14 (2015), available at http://www.lccr.com/not-just-ferguson-problem-howtraffic-courts-drive-inequality-in-california/.
4
“To survive a motion to dismiss, a complaint must contain sufficient factual matter, accepted as
true, to ‘state a claim to relief that is plausible on its face.’” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009),
quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007). The United States therefore assumes the
facts presented in the Plaintiffs’ Complaint to be true for purposes of this Statement of Interest.
5
See March 14, 2016 Dear Colleague Letter, supra note 1, at 6-7, n.7 (citing Am Ass’n of Motor
Veh. Adm’rs., Best Practices Guide to Reducing Suspended Drivers 3 (2013)) (recommending that
“legislatures repeal state laws requiring the suspension of driving privileges for non-highway safety
related violations” and citing research supporting view that fewer driver suspensions for non-compliance
with court requirements would increase public safety); Shaila Dewan, Driver’s License Suspensions
Create Cycle of Debt, N.Y. Times, April 14, 2015, available at
http://www.nytimes.com/2015/04/15/us/with-drivers-license-suspensions-a-cycle-of-debt.html
(comparing driver’s license suspension practices and detailing impact of those practices).

Case 3:16-cv-00044~NKM-JCH Document 27 Filed 11/07/16 Page 4 of 22 Pageid#: 367
63a

suspension practices have been challenged on the grounds that they violate state or federal law.
See, e.g., Hernandez v. California Dep’t of Motor Vehicles, No. RG16836460 (Super. Ct. of
Alameda Cnty., filed Oct. 25, 2016); Rubicon Programs v. Solano County Superior Court, No.
FCS047212 (Super. Ct. of Solano Cnty., filed June 15,2016).
Plaintiffs, four individuals whose driver’s licenses have been suspended due to their
failure to pay fines, fees, or costs assessed by Virginia courts, filed a Complaint in July 2016
against Richard D. Holcomb in his official capacity as the Commissioner of the Virginia
Department of Motor Vehicles (hereinafter, “Defendant”), alleging that the specific practices
Virginia employs to suspend the driver’s licenses of those who fail to pay fines or fees violates
the Constitution. See generally Complaint. In part, Plaintiffs allege that Defendant
automatically suspends the driver’s licenses of those who miss court payments (regardless of
whether those payments are related to a traffic or non-traffic offense) without providing an
adequate opportunity to be heard, and without any inquiry into whether the missed payment was
the result of an inability to pay. Id. at

409-28. Plaintiffs seek declaratory relief, as well as

injunctive relief prohibiting Defendant from suspending driver’s licenses due to nonpayment of
fines and fees until Virginia can do so in a constitutional manner. Complaint at 54-55.
On October 3,2016, Defendant moved to dismiss Plaintiffs’ Complaint. Motion to
Dismiss [ECF No. 9]. In addition to arguing that Plaintiffs’ Complaint is procedurally barred,
Defendant also argues that Plaintiffs’ due process and equal protection claims fail to state a claim
upon which relief can be granted. Memorandum in Support of Defendant’s Motion to Dismiss
[ECF No. 10] (hereinafter, “Defendant’s Memorandum”) at 30-40.6

6
The United States does not take any position on Defendant’s claim that the Complaint is
procedurally barred, or any other issue in this litigation not addressed herein.

Case 3:16-cv-00044-NKM-JCH Document 27 Filed 11/07/16 Page 5 of 22 Pageid#: 368
64a

DISCUSSION
A.

The Fourteenth Amendment Guarantee of Procedural Due Process Prohibits the
Automatic Suspension of a Driver’s License for Failure to Pay Court Debt Absent
Notice and a Meaningful Opportunity to be Heard
The cornerstone of due process is that when the deprivation of a protected property

interest is at stake, the state must provide notice and the opportunity to be heard “at a meaningful
time and in a meaningful manner.” Armstrong v. Manzo, 380 U.S. 545, 552 (1965); see also
Mathews v. Eldridge, 424 U.S. 319,333 (1976); Fuentes v. Shevin, 407 U.S. 67, 80-82 (1972);
Mullane v. Central Hanover Bank & Trust Co., 339 U.S. 306, 314-315 (1950) (“An elementary
and fundamental requirement of due process in any proceeding ... is notice reasonably
calculated, under all the circumstances, to apprise interested parties of the pendency of the action
and afford them an opportunity to present their objections.”) (citations omitted).
A driver’s license is a protected interest that, once issued, cannot be revoked or
suspended “without that procedural due process required by the Fourteenth Amendment.” Bell v.
Burson, 402 U.S. 535, 539 (1972) (citations omitted). As with all deprivations of protected
interests, the specific process that must be afforded in suspending a person’s driver’s license
varies depending on what “the particular situation demands.” Mathews, 424 U.S. at 334 (internal
quotation marks and citation omitted). The Supreme Court has articulated a three-part inquiry
for evaluating the constitutional sufficiency of the process provided when a protected interest is
affected: (1) the nature of the private interest that will be affected by the governmental action;
(2) the risk of erroneous deprivation and the probable value of requiring additional procedural
safeguards; and (3) the government’s interest, including the fiscal and administrative burdens
that additional procedural safeguards would entail. Id. at 335 (citations omitted).
Applying these factors in cases involving driver’s license suspensions, the Supreme Court
has found varying degrees of process due depending on the nature and circumstances of the

Case 3:16-cv-00044-NKM-JCH Document 27 Filed 11/07/16 Page 6 of 22 Pageid#: 369
65a

suspension.7 In Bell, the Court considered a challenge to a statutory scheme requiring the
suspension of the driver’s license of any uninsured driver who failed to post security following
an accident, regardless of whether that driver was at fault for the accident. Bell, 402 U.S. at 53537. The Court held that, in light of the fact that there was no emergency circumstance requiring
the immediate suspension of the driver’s license, due process required the driver to be provided
with a meaningful opportunity to be heard (though not necessarily a full evidentiary hearing)
before the license suspension occurred.8 Id. at 540-42. In other circumstances where
suspensions are more directly related to a state’s interest in maintaining public safety on its roads
and highways, the Court has found that a post-suspension hearing is sufficient. In Dixon v. Love,
431 U.S. 105,113-15 (1977), for instance, the Court upheld a statute requiring the suspension or
revocation of a driver’s license if a driver is repeatedly involved in accidents or convicted of
traffic offenses. Id. In those circumstances, the Court held, the statute’s provision of a full
evidentiary hearing as soon as practicable was sufficient. Id. at 114-15. In Mackey v. Montrym,
443 U.S. 1,13-17 (1979), the Court upheld the suspension of a driver’s license after an
individual was arrested for driving under the influence and refused to take a breath-analysis test,
because suspension “substantially served” the government’s interest in public safety.
Whereas Bell, Dixon, and Mackey involved challenges to the timing or scope of the
opportunity to be heard regarding a driver’s license suspension, here Plaintiffs allege that

7
Citing to Davis v. Williams (4th Cir. Va. Apr. 3 1996) (unpublished), Defendant argues that the
driver’s license suspension statute at issue in this litigation has already been found to comport with
procedural due process requirements. See Defendant’s Memorandum at 32. However, the unpublished,
four-paragraph decision in Davis relies on the fact that the claims were procedurally barred and does not
address the procedural due process claims at issue in this case.
8
While the Supreme Court decided Bell four years before it decided Mathews, the Court’s analysis
in these cases was grounded in similar considerations. Compare Bell, 402 U.S. at 539-40 (weighing
individual interest, sufficiency of existing process, and government interest), with Mathews, 424 U.S. at
335 (instructing that courts consider individual interest, risk of erroneous deprivation and benefits of
additional process, and government interest).

Case 3:16-cv-00044-NKM-JCH Document 27 Filed 11/07/16 Page 7 of 22 Pageid#: 370
66a

Defendant suspends the driver’s licenses of those who miss required court payments without
providing an opportunity to be heard at all. Complaint at If 39. Rather, Plaintiffs allege that
individuals are only provided with basic notice of the license suspension and no means to
challenge that suspension. Complaint at 55 275, 277. Specifically, Plaintiffs allege that after
fines, costs, and fees are assessed, courts provide individuals with a form to acknowledge that the
failure to pay the identified amount will result in the automatic suspension of the person’s
driver’s license. Id. Plaintiffs further allege that the form provided does not notify people of any
availability of a hearing regarding the suspension, nor is a hearing available in fact. Id. at
55 291-93. If, after 30 days, payment has not been received, Plaintiffs allege that the court
automatically transmits a record of nonpayment to the Virginia Department of Motor Vehicles
(DMV). Id. at 55 279, 284,286. According to Plaintiffs, upon receipt of such a record, the
DMV immediately suspends the individual’s driver’s license without any further notice and
without conducting any separate inquiry into the reason for the default or the appropriateness of
the suspension. Id. at 55 285-90. Plaintiffs state that suspensions remain in effect until all
outstanding court debt is paid in full, or a payment plan is secured. Id. at 5 296. Finally,
Plaintiffs allege that a reinstatement fee of at least $145 must also be paid before the suspension
is lifted. Id. at 5 297.
Assuming these allegations to be true, as required at the motion to dismiss stage, and
based upon relevant precedent and consideration of the Mathews factors, the driver’s license
suspension practices employed by Defendant fail to comport with due process requirements.
Turning to the first Mathews factor, a person’s interest in continuing to hold a valid driver’s
license “is a substantial one.” Mackey, 443 U.S. at 11; see also Dixon, 431 U.S. at 113; Bell, 402
U.S. at 539. License suspensions can impose significant harm on the well-being of individuals

Case 3:16-cv-00044-NKM-JCH Document 27 Filed 11/07/16 Page 8 of 22 Pageid#: 371
67a

and their families. Bell, 402 U.S. at 539. Depriving individuals of the use of their vehicle can
imperil their ability to earn a living, pursue educational opportunities, and care for family.9
These harms may be particularly acute in rural areas of Virginia where there is limited public
transportation and where essential services, such as health care and schools, may well be long
distances from people’s homes. A driver’s license suspension is thus a significant interest, the
deprivation of which can impose substantial harm. Cf. Memphis Light, Gas & Water Div. v.
Craft, 436 U.S. 1,18 (1978) (noting that utility service “is a necessity of modem life” and that
the discontinuance of service “for even short periods of time may threaten health and safety” in
holding that due process required greater procedural protections than were afforded);
Goldberg v. Kelly, 397 U.S. 254, 264 (1970) (citations omitted) (noting that welfare benefits
provided “the means to obtain essential food, clothing, housing, and medical care” in holding
that due process required hearing before termination of benefits).
The Supreme Court has also instructed that the duration of any potentially wrongful
deprivation is an important part of assessing “the impact of official action on the private interest
involved.” Mackey, 443 U.S. at 12 (citation omitted); Mathews, 424 U.S. at 341. Here,
Plaintiffs allege that under Virginia’s statutory scheme a driver’s license suspension for a missed
payment remains in effect until the debt triggering the suspension is paid in full (along with a

9
See, e.g., Robert Cervero, et al., Transportation as a Stimulus ofWelfare-to-Work: Private versus
Public Mobility, 22 J. PLAN. EDUC. & RES. 50 (2002); Alan M. Voorhees, et al., Motor Vehicles
Affordability and Fairness Task Force: Final Report, at xii (2006), available at
http://www.state.nj.us/mvc/pdf/About/AFTF_final_02.pdf (a study of suspended drivers in New Jersey,
which found that 42 percent of people lost their jobs as a result of the driver’s license suspension, that 45
percent could not find another job, and that this had the greatest impact on seniors and low-income
individuals). Cf. Pew Research Center, The Fading Glory of The Television and Telephone 1 (2014),
http://assets.pewresearch.Org/wp-content/uploads/sites/3/2011/01/Final-TV-and-Telephone.pdf (last
accessed October 17, 2016) (noting 2010 study showing that 86 percent of Americans believe that a car is
a necessity).

Case 3:16-cv-00044-NKM-JCH Document 27 Filed 11/07/16 Page 9 of 22 Pageid#: 372
68a

reinstatement fee), which may result in a prolonged deprivation, particularly for indigent
defendants. Complaint at 55 296-97.10
With respect to the second Mathews factor, there is a significant risk that the alleged
practices will result in erroneous deprivations of driver’s licenses. Plaintiffs allege that driver’s
licenses are automatically suspended on the basis of determinations by court clerks that are
susceptible to clerical errors that may result in wrongful revocation, Complaint at 55 286-89—
e.g., because the license suspension was requested against the wrong person or because fines and
fees were actually paid but improperly recorded. Additionally, there are a number of situations
where a person may not have paid the fine, but revocation may nonetheless be inappropriate—
e.g., if a person never received notice of the payment due, if a person was hospitalized or
otherwise incapacitated for the duration of the time period during which payment could be made,
or because financial circumstances made it impossible to pay, see infra at 14-19. Indeed,
Plaintiffs allege that several of these things happened in their cases. Complaint at 12-13,15,19,
24-25.
Virginia’s existing procedures are insufficient to protect against these erroneous
deprivations and do not serve as an adequate substitute for a meaningful pre-deprivation hearing
and appropriate notice of that hearing. Defendant argues that the “due process that is provided in
connection with these Plaintiffs’ underlying criminal and traffic convictions afford them all the
process that is due.” Defendant’s Memorandum at 33. Yet the process provided during the
adjudication of individuals’ underlying offenses is targeted at ensuring that they have notice of
10

Defendant’s reliance on the availability of a “restricted license” for those who have had their
licenses suspended as evidence that these individuals may secure the ability to drive is misplaced.
Defendant’s Memorandum at 11. According to the Complaint, none of the named plaintiffs were in fact
eligible for this restricted license, in part because they are not currently employed. Complaint at 55 42,
118. Further, even for those eligible and able to secure a restricted license, such licenses are only valid
for six months. Va. Code § 46.2-395(E). Restricted licenses are thus unavailable in many cases and an
inadequate protection against wrongful driver’s license suspensions.

Case 3:16-cv-00044-NKM-JCH Document 27 Filed 11/07/16 Page 10 of 22 Pageid#: 373
69a

the charges against them and a meaningful opportunity to be heard with respect to those charges.
That process does not provide any opportunity to be heard regarding the event that triggers the
driver’s license suspension—namely, a person’s failure to pay the court debt that stems from the
underlying conviction. Indeed, courts do not assess fines or fees until the end of the process
provided in connection with the underlying traffic or criminal offense; a person’s failure to pay
those fines or fees thus necessarily occurs after the conclusion of that process. The
circumstances here are therefore distinct from those in Dixon, 431 U.S. at 113-14. While the
Dixon Court concluded that the risk of erroneous deprivation was low in part because due
process was afforded in the underlying convictions, there the convictions themselves—and not
any other event, like a person’s failure to pay—automatically triggered the driver’s license
suspension. Id.11
By not providing any forum for individuals facing the suspension of their licenses to be
heard, any errors that do occur are likely to persist, with compounding collateral consequences.
As the Supreme Court has recognized, erroneous deprivations of driver’s licenses are particularly
troubling because the state “will not be able to make a driver whole for any personal
inconvenience and economic hardship suffered by reason of any delay in redressing an erroneous

11

Similarly, the availability of appellate review of a defendant’s underlying conviction does not
satisfy the Commonwealth’s obligation to provide a hearing regarding the defendant’s failure to pay fines
and costs that resulted from that conviction. Defendant’s Memorandum at 32. Plaintiffs do not seek to
re-litigate the facts related to the underlying conviction, but rather the appropriateness of the license
suspension itself. See Warner v. Trombetta, 348 F. Supp. 1068,1071 (M.D. Pa. 1972) (requiring
administrative hearing for license suspension that resulted from guilty plea because even if the underlying
conviction cannot be contested, there still remains the possibility of error, including misidentification of
licensee, miscalculation of fine by the court, or errors on the report of conviction form), ajfd, 410 U.S.
919 (1973).
Defendant also points to the availability of a post-conviction “show cause” hearing to challenge
outstanding fines and fees. Defendant’s Memorandum at 32-33. However, these show-cause hearings
can be convened only by the court or a prosecuting attorney and are not required by statute. Va. Code
Ann. § 19.2-358(A). Nor does it appear any show-cause hearing was provided to any Plaintiff. See
generally Complaint. Additionally, the hearings address defaults of deferred payments or installment
plans, not erroneous deprivations of driver’s licenses. See Va. Code Ann. § 19.2-358(A).

Case 3:16-cv-00044-NKM-JCH Document 27 Filed 11/07/16 Page 11 of 22 Pageid#: 374
70a

suspension through post-suspension review procedures.” Mackey, 443 U.S. at 11. To be clear,
due process does not require that the process afforded to individuals is entirely free of error. See
id. at 13; Mathews, 424 U.S. at 344. Nonetheless, absent basic procedural protections—
including a meaningful pre-deprivation hearing that includes an assessment of the reason for
nonpayment—the risk of error under the circumstances alleged by Plaintiffs is substantial and
not easily redressed.
Turning to the third Mathews factor, the Commonwealth’s relevant interests and the
fiscal and administrative burdens of additional or substitute procedural requirements do not
outweigh the importance of providing more substantial procedural protections. Courts have
recognized that states have a strong interest in using driver’s license suspensions as a way to
protect public safety by preventing drivers with habitually unsafe driving records from
continuing to drive. See Dixon, 431 U.S. at 113-14; Mackey, 443 U.S. at 13-17. Here, however,
license suspensions are not imposed in response to an identified threat to public safety, but rather
in response to missed payments and in order “to compel future compliance with a court order.”
Defendant’s Memorandum at 36. Indeed, research shows that suspending driver’s licenses for
nonpayment of fines and fees actually undermines public safety by diverting law enforcement
resources away from traffic violations that do pose a risk to the public and by leading to more
unlicensed and uninsured drivers on the roads. See supra note 5.
To be sure, the state has an interest in ensuring that offending drivers comply with court
orders and bear responsibility for any offense of which they are convicted. But courts have
found that this interest is not on par with the state’s interest in protecting public safety, and thus
does not provide as strong a justification for failing to provide basic procedural protections. See,
e.g., Dixon, 431 U.S. at 113-14 (finding that “the important public interest in safety on the roads

Case 3:16-cv-00044-NKM-JCH Document 27 Filed 11/07/16 Page 12 of 22 Pageid#: 375
71a

and highways, and in the prompt removal of a safety hazard.... fully distinguishes” the case
from Bell v. Burson, where the purpose “was to obtain security from which to pay any judgments
against the licensee”) (citations and internal quotation marks omitted); Mackey, 443 U.S. at 1317 (1979) (noting that “the paramount interest the Commonwealth has in preserving the safety of
its public highways, standing alone, fully distinguishes this case from Bell,''1 as courts have
“accorded the states great leeway in adopting summary procedures to protect public health and
safety”) (citations omitted); cf. Tomai-Minogue v. State FarmMut. Aut. Ins. Co., 770 F.2d 1228,
1235 (4th Cir. 1985) (finding post-deprivation hearing to be adequate where statute required
driver’s license suspensions against those who failed to satisfy automobile accident
judgments).12
Further, automatic driver’s license suspensions do not further the Commonwealth’s
interest in ensuring compliance with court orders—particularly with respect to indigent
defendants, who remain unable to pay court-ordered fines and fees after their driver’s license
suspension and may become less able to pay in light of the adverse impact of the suspension on
their employment and their lives. Nor would the Commonwealth’s interest in compelling the
payment of outstanding court debt be substantially compromised by providing individuals at risk
of having their licenses suspended with a meaningful pre-deprivation opportunity to be heard.
12

Although the Commonwealth’s interest in Tomai-Minogue, as here, focused on the collection of
money, the court’s analysis makes clear that a license suspension for failure to pay a traffic accident
judgment is directly related to public safety because it ensures that drivers can be held responsible, and
injured parties made whole, for harms occurring on roadways, which in turn deters reckless driving. See
Tomai-Minogue, 770 F.2d at 1235 (acknowledging that public safety concerns heighten the state’s interest
in swift suspension of a driver’s license, as the interest in ensuring that motorists satisfy judgments “is
anything but trivial when accidents involve loss of human life, injury to other motorists, and extensive
property damage.”). No such heightened interest exists in the present case, where license suspensions are
used to compel the payment of court debts regardless of whether those debts are connected in any way to
road safety. Further, the court’s determination that a post-deprivation hearing satisfied due process in
Tomai-Minogue was also influenced by the particular procedural posture of that case, namely the
administrative complexities of requiring a pre-deprivation forum to challenge personal jurisdiction as the
plaintiff sought. Id. at 1236.

Case 3:16-cv-00044-NKM-JCH Document 27 Filed 11/07/16 Page 13 of 22 Pageid#: 376
72a

Cf. Mackey, 443 U.S. at 18 (finding that “[t]he summary and automatic character of the
suspension sanction available under the statute is critical to attainment of [the statutory]
objectives” because a “pre-suspension hearing would substantially undermine the state interest in
public safety by giving drivers significant incentive to refuse the breath-analysis test”).
Given the importance of driver’s licenses to those who possess them, the significant risk
of erroneous suspensions due to the lack of a meaningful opportunity for individuals to be heard
regarding the facts giving rise to a driver’s license suspension, and the nature of the
Commonwealth’s interest as well as the impact additional procedural protections would have on
that interest, Defendant’s driver’s license suspension practices fail to comport with procedural
due process requirements.
B.

Automatically Suspending an Individual’s Driver’s License for Failure to Pay Court
Debt Without Any Assessment of the Individual’s Ability to Pay or Alternative
Means of Securing the Government’s Interest Violates the Fourteenth Amendment
The Fourteenth Amendment prohibits “punishing a person for his poverty.” Bearden v.

Georgia, 461 U.S. 660, 671 (1983). Here, Defendant’s practice of automatically suspending the
driver’s license of any person who fails to pay outstanding court debt—without inquiring into
ability to pay—violates that constitutional principle. Its result is that indigent defendants who
cannot afford their fines and fees have their driver’s licenses suspended, while defendants who
can afford to pay do not.
In a long line of cases beginning with Griffin v. Illinois, 351 U.S. 12,16 (1956), the
Supreme Court has made clear that conditioning access or outcomes in the justice system solely
on a person’s ability to pay violates the Fourteenth Amendment. In Griffin, the Supreme Court
held that a criminal appellant could not be denied the right to appeal based on an inability to pay
a fee, finding that “[i]f [the state] has a general policy of allowing criminal appeals, it cannot

Case 3:16-cv-00044-NKM-JCH Document 27 Filed 11/07/16 Page 14 of 22 Pageid#: 377
73a

make lack of means an effective bar to the exercise of this opportunity.” Id. at 24 (Frankfurter,
J., concurring). In Williams v. Illinois, 399 U.S. 235 (1970), the Court found that a state could
not incarcerate an indigent individual beyond the statutory maximum term on account of missed
fine and fee payments, because if that incarceration “results directly from an involuntary
nonpayment of a fine or court costs we are confronted with an impermissible discrimination that
rests on ability to pay.” Id. at 240-41. And in Tate v. Short, 401 U.S. 395 (1971), the Court
found that a state could not convert a defendant’s unpaid fine for a fine-only offense to
incarceration because that would subject him “to imprisonment solely because of his indigency.”
Id. at 397-98.
In Bearden, the Court elaborated on this principle in holding that the Fourteenth
Amendment prohibits a state from revoking an indigent defendant’s probation for failure to pay a
fine and restitution without first “inquir[ing] into the reasons for the failure to pay.” Bearden,
461 U.S. at 672. The Court also concluded that, for defendants who could not afford to pay fines
or fees imposed for the purposes of punishment, “it is fundamentally unfair to revoke probation
automatically without considering whether adequate alternative methods of punishing the
defendant are available.” Bearden, 461 U.S. at 668-69.
While Griffin, Williams, Tate, and Bearden were cases in which a criminal defendant’s
liberty interest was directly implicated, “Griffin’s principle has not been confined to cases in
which imprisonment is at stake.” M.L.B. v. S.L.J., 519 U.S. 102, 111 (1996). Rather, the
constitutional principle reaffirmed by these cases prohibits the imposition of adverse
consequences against indigent defendants solely because of their financial circumstances,
regardless of whether those adverse consequences take the form of incarceration, reduced access
to court procedures, or some other burden. The Supreme Court has, for instance, held that an

Case 3:16-cv-00044-NKM-JCH Document 27 Filed 11/07/16 Page 15 of 22 Pageid#: 378
74a

indigent defendant convicted of nonfelony offenses could not be denied an appellate record even
though his convictions resulted in fines, not incarceration. See Mayer v. Chicago, 404 U.S. 189,
197 (1971) (noting that the “invidiousness of the discrimination that exists when criminal
procedures are made available only to those who can pay is not erased by any differences in the
sentences that may be imposed”). The Supreme Court has also applied this principle in cases
arising in entirely non-criminal contexts. See, e.g.,

519 U.S. at 124 (indigent person

could not be denied appeal of decision terminating parental rights due to inability to pay court
costs); Boddie v. Connecticut, 401 U.S. 371,382-83 (1971) (a married couple’s divorce could
not be denied based on inability to pay court costs).
Despite the clearly established constitutional principle of equal access to justice
articulated in Bearden and other cases, Defendant argues that even if its practices resulted in
indigent defendants having their driver’s licenses suspended because they could not afford to pay
outstanding court debt, this practice would fall outside of the Fourteenth Amendment’s
prohibition on disparate treatment. See Defendant’s Memorandum at 36-40. Specifically,
Defendant asserts that Plaintiffs have failed to allege either discriminatory effect or
discriminatory intent as required by equal protection clause doctrine. Id. This argument is
misplaced. In Bearden, the Supreme Court explained that because “[djue process and equal
protection principles converge in the Court’s analysis in these cases,” the traditional equal
protection framework does not apply. Bearden, 461 U.S. at 665. Given that “indigency in this
context is a relative term rather than a classification, fitting the problem of this case into an equal
protection framework is a task too Procrustean to be rationally accomplished.” Id. at 666 n.8
(citation and internal quotation marks omitted); see also M.L.B., 519 U.S. at 127 (explicitly
declining to apply traditional equal protection clause framework in holding Constitution requires

Case 3:16-cv-00044-NKM-JCH Document 27 Filed 11/07/16 Page 16 of 22 Pageid#: 379
75a

availability of appellate review of the termination of parental rights). Instead, in determining
whether a particular practice violates the constitutional prohibition on “punishing a person for his
poverty,” courts must assess “the nature of the individual interest affected, the extent to which it
is affected, the rationality of the connection between legislative means and purpose, [and] the
existence of alternative means for effectuating the purpose.” Bearden, 461 U.S. at 666-67
(citation omitted; brackets in original).
Applying these factors here, and assuming the facts alleged in the Complaint,
Defendant’s practice of automatically suspending the driver’s license of a defendant who fails to
pay owed court debt without any inquiry into the defendant’s financial circumstances—i.e.,
whether the nonpayment was willful or the result of an inability to pay—violates the Fourteenth
Amendment.
The individual interest in maintaining possession of a driver’s license “is a substantial
one,” Mackey, 443 U.S. at 11, and the practices at issue significantly impair that interest. As set
forth in detail supra at 8-10, driver’s licenses are often crucial to a person’s well-being. Indeed,
the interest in a driver’s license may be even greater for indigent persons without means to
secure alternate methods to provide care for themselves or their families.13 See Mayer, 404 U.S.
at 197 (noting that penalty other than incarceration “may bear as heavily on an indigent accused
as forced confinement[,]” and stressing that “[t]he collateral consequences of conviction may be
even more serious”). Further, suspending a person’s driver’s license entirely deprives that
person of the lawful ability to drive, as every state prohibits driving without a license or with a
suspended license. Additionally, Virginia is one of 41 states, as well as the District of Columbia,
where a first conviction for driving with a suspended license may carry a sentence of
13

See, e.g., Mikayla Bouchard, Transportation Emerges as Crucial to Escaping Poverty, N.Y.
Times, May 7, 2015, http://www.nytimes.eom/2015/05/07/upshot/transportation-emerges-as-crudal-toescaping-poverty.html.

Case 3:16-cv-00044-NKM-JCH Document 27 Filed 11/07/16 Page 17 of 22 Pageid#: 380
76a

incarceration. See Va. Code Ann. §§ 46.2-301,18.2-11; see also Driving While Revoked,
Suspended, or Otherwise Unlicensed: Penalties By State, National Conference of State
Legislatures, http://www.ncsl.org/research/transportation/driving-while-revoked-suspended-orotherwise-unli.aspx (last accessed October 31,2016). This risk is all too real for people who
have no other option but to drive unlawfully in order to work, care for their children, or attend
crucial medical appointments.
Further, the automatic suspension of driver’s licenses for failure to pay fines or fees does
not advance a state’s inherent interest in promoting public safety, see supra at 12-13, nor is it an
effective means of achieving the identified purpose of this practice, see supra at 13-14—namely
compelling “future compliance with a court order.” Defendant’s Memorandum at 36. This is
particularly true with respect to defendants who have failed to pay fines or fees because they
could not afford to do so; they will not have any greater ability to pay after their license is
suspended. See Bearden, 461 U.S. at 670 (“Revoking the probation of someone who through no
fault of his own is unable to make restitution will not make restitution suddenly forthcoming.”).
Indeed, in light of the impact a driver’s license suspension can have on a person’s ability to
maintain employment, see supra at 9, in many cases suspending a person’s license may impair
that person’s ability to satisfy outstanding court debt and thus frustrate, rather than advance, the
interest identified here.14
Further, as the Court made clear in Bearden, there are alternative means, other than
attempting to compel the payment of fines or fees through driver’s license suspensions, for
14

See Arthur W. Pepin, Conference of State Court Administrators, 2015-2016 Policy Paper, The
End of Debtors’ Prisons: Effective Court Policies for Successful Compliance with Legal Financial
Obligations 5 (2016), citing Alicia Bannon, Mitali Nagrecha and Rebekah Diller, Criminal Justice Debt:
A Barrier to Reentry 19 (2010) (“Because of the detrimental effects suspensions have on the employment
prospects of indigent people and because debt-related suspensions have no relation to driver safety, the
practice of suspending licenses for failure to pay fees is completely lacking in rehabilitative or deterrent
value.”).

Case 3:16-cv-00044-NKM-JCH Document 27 Filed 11/07/16 Page 18 of 22 Pageid#: 381
77a

securing the Commonwealth’s underlying interest in punishing crimes and traffic violations of
indigent defendants. These alternatives include reducing fines or fees to a manageable amount in
accordance with a person’s ability to pay, offering community service programs, or requiring the
completion of coursework, such as traffic safety classes.15 See Bearden, 461 U.S. at 672 (noting
that “[t]he State is not powerless to enforce judgments against those financially unable to pay a
fine” and highlighting alternative mechanisms available to states, such as community service)
(citation and internal quotation marks omitted; alteration in original). Absent the use of these
alternative mechanisms, indigent defendants who are unable to pay the fines and fees they owe
face the suspension of their driver’s license, while defendants who can afford to pay do not. This
disparity is “wholly contingent on one’s ability to pay” in violation of constitutional
requirements.

519 U.S. at 127 (citing Williams, 399 U.S. at 242) (internal quotation

marks omitted).
In light of these factors and Plaintiffs’ factual allegations, the practice of automatically
suspending an indigent person’s driver’s license for failure to pay money owed to a court without
adequate consideration of the person’s ability to pay violates the Fourteenth Amendment.
CONCLUSION
For the foregoing reasons, the United States respectfully requests that the Court conclude
that Plaintiffs have set forth a plausible claim for relief that the alleged driver’s license

15

As the Department of Justice has recognized, in certain circumstances payment plans may be one
appropriate alternative for individuals who cannot afford to pay the entire amount owed during the
required time period. See Dear Colleague Letter, supra note 1, at 4. Defendant asserts that courts in
Virginia provide the opportunity for people to enter “deferred payment schemes” in order to avoid
automatic license suspension upon default. Defendant’s Memorandum at 33. However, if, as Plaintiffs
allege, there are conditions restricting access to payment plans, including criminal history requirements,
inflexible minimum payments, or substantial down payments, payment plans may be insufficient to
adequately alleviate impairment of ineligible individuals’ constitutional rights. Additionally, some
individuals may lack the ability to pay any money for the foreseeable future. For these persons, states
must consider alternative options that do not require monetary payment.

Case 3:16-cv-00044-NKM-JCH Document 27 Filed 11/07/16 Page 19 of 22 Pageid#: 382
78a

suspension practices violate the Fourteenth Amendment by failing to (1) comport with
procedural due process requirements and (2) consider defendants’ ability to pay.

Respectfully submitted,

JOHN P. FISHWICK, JR.
United States Attorney
Western District of Virginia

VANITA GUPTA
Principal Deputy Assistant Attorney General
Civil Rights Division

/s/ Anthony P. Giomo
ANTHONY P. GIORNO (VA 15830)
Assistant United States Attorney
Western District of Virginia
Post Office Box 1709
Roanoke, Virginia 24008-1709
Telephone: (540) 857-2906
anthony .giomo @ usdoj. gov

ROBERT MOOSSY
Deputy Assistant Attorney General
Civil Rights Division

LISA FOSTER (CA 122178)
Director
Office for Access to Justice
Telephone: (202) 514-7073
lisa.foster3 @usdoj.gov

STEVEN H. ROSENBAUM
Section Chief
Civil Rights Division
Special Litigation Section

KAREN LASH (CA 132133)
Deputy Director
Office for Access to Justice
Telephone: (202) 307-3573
karen.lash@usdoj.gov
ROBERT B. BULLOCK (CA 219942)
Senior Counsel
Office for Access to Justice
Telephone: (202) 514-5324
bob.bullock@usdoj.gov
PAUL KILLEBREW (LA 32176)
Office for Access to Justice
950 Pennsylvania Avenue, NW
Washington, D.C. 20530
Telephone: (202) 514-7086

CHIRAAG BAINS
Senior Counsel to the Assistant Attorney
General
Civil Rights Division

JUDE VOLEK (NY 10041483N)
Special Counsel
Civil Rights Division
Special Litigation Section
Telephone: (202) 353-1077
jude.volek@usdoj.gov
/si Maureen Johnston
MAUREEN JOHNSTON (WA 50037)
Trial Attorney
Civil Rights Division
Special Litigation Section
Telephone: (202) 353-1146
maureen.johnston@usdoj.gov
/s/ Seth Wavne__________
SETH WAYNE (LA 34144)
Trial Attorney

Case 3:16-cv-00044-NKM-JCH Document 27 Filed 11/07/16 Page 20 of 22 Pageid#: 383
79a

